<html>
<title> - STATE OF THE AMERICAN CHILD: WHAT'S WORKING FOR CONNECTICUT'S CHILDREN</title>
<body><pre>[Senate Hearing 111-1149]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1149

 
 STATE OF THE AMERICAN CHILD: WHAT'S WORKING FOR CONNECTICUT'S CHILDREN

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE STATE OF AMERICAN CHILDREN, FOCUSING ON WHAT'S WORKING 
                       FOR CONNECTICUT'S CHILDREN

                               __________

                     JULY 26, 2010 (New Haven, CT)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
76-840                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6f081f002f0c1a1c1b070a031f410c000241">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas          
MICHAEL F. BENNET, Colorado          
CARTE P. GOODWIN, West Virginia      


                      Daniel Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS, (I) Vermont         ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                  LISA MURKOWSKI, Alaska
ROBERT P. CASEY, Jr., Pennsylvania   TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon                 MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)

                   Tamar MagarikHaro, Staff Director

                David P. Cleary, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                         MONDAY, JULY 26, 2010

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
Zigler, Edward, Ph.D., Director Emeritus, Edward Zigler Center in 
  Child Development and Social Policy, Yale University, New 
  Haven, CT......................................................     8
    Prepared statement...........................................    11
Horan, James B., Executive Director, Connecticut Association for 
  Human Services, Hartford, CT...................................    12
    Prepared statement...........................................    14
Lowell, Darcy, M.D., Executive Director, Child First CT, 
  Bridgeport Hospital, Bridgeport, CT............................    17
    Prepared statement...........................................    19
Keck, Douglas B., D.M.D., M.S.H.Ed., Connecticut State Leader, 
  AAPD Head Start Dental Home Initiative, Madison, CT............    22
    Prepared statement...........................................    23
Dolliver, Abby I., Superintendent, Norwich Public Schools, 
  Norwich, CT....................................................    27
    Prepared statement...........................................    29
Papa, Tammy, Director, Bridgeport Lighthouse, Bridgeport, CT.....    30
    Prepared statement...........................................    32
Day, KellyAnn, Executive Director, New Haven Home Recovery, 
  Manchester, CT.................................................    34
    Prepared statement...........................................    36
Edwards, Doug, Founder and Programs Director, Real Dads Forever, 
  Manchester, CT.................................................    41
Honigfeld, Lisa, Ph.D., Vice President for Health Initiatives, 
  Child Health and Development Institute of Connecticut, Inc., 
  Farmington, CT.................................................    43

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Debra P. Hauser, Ph.D., M.S.W................................    64
    William B. Wickwire, Attorney................................    69

                                 (iii)

  


 STATE OF THE AMERICAN CHILD: WHAT'S WORKING FOR CONNECTICUT'S CHILDREN

                              ----------                              


                         MONDAY, JULY 26, 2010

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                     New Haven, CT.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
the Donald J. Cohen Auditorium, Yale Child Study Center, 230 
South Frontage Road, Hon. Christopher J. Dodd, chairman of the 
subcommittee, presiding.
    Present: Senator Dodd.

                   Opening Statement of Senator Dodd

    Senator Dodd. The committee will come to order. I guess I 
have a gavel. That is what the gavel is here for.
    Let me welcome all of you here this morning. I see a lot of 
familiar faces and friendly faces out in the audience. I thank 
you all for being here this morning to be a part of this series 
of conversations we are having as the Health, Education, Labor, 
and Pensions Committee, the Subcommittee on Children and 
Families, which I have either chaired or been the ranking 
member of, for over the last 25 or 30 years.
    We have done a lot of work together with many of you in the 
room on children's issues and family issues. And as I am 
wrapping up the next 6 or 7 months of my seat in the U.S. 
Senate, I thought it would be worthwhile to conduct a series of 
hearings on the status of the American child and to look at 
where we are today, what we have accomplished, and where we 
need to go.
    We have had hearings already, led off by Alma Powell, 
General Colin Powell's wife, who has been very involved in 
children's issues for a long time, along with others. We are 
here today to talk about some solutions, things that 
Connecticut has done well over the years, although we all 
recognize we have a lot of work to do.
    But I have always been very, very proud--a lot of the ideas 
that I have championed over the years as the chairman of the 
Subcommittee on Children and Families have come from this 
State, come from this very building. In fact, people like Ed 
Zigler, who have been just remarkable as a tutor and a guide 
for me over the years in dealing with children's issues. I have 
been very, very grateful to many others of you here today as 
well. And so, I have utilized the experience in Connecticut to 
try and help develop some national standards and ideas as well.
    We will have a hearing later this week, Thursday, back in 
Washington again, to start talking about national ideas and 
solutions as well, with representatives from the major Cabinet 
officers that are coming together. And it will be wrapping up 
as well with some ideas on the establishment of a permanent 
council on the status of children, much as we have done here in 
Connecticut, along with the ideas of establishing something 
along the lines of a report card on an annual basis so we have 
a regular basis by which we have a structure in place to make 
determinations as to how we are doing, sort of tracking this 
without having to go back over and over, over the years.
    I wanted to begin, I should have at the very outset here, 
to express my condolences--and all of you, I am sure, will join 
me in this--to remember the two firefighters in Bridgeport, by 
the way, who lost their lives over the weekend--Lieutenant 
Steven Velasquez and Michael Baik. They died while fighting a 
fire in Bridgeport on Saturday, and I know all of us want to 
express our condolences to their families and their brother and 
sister firefighters in Bridgeport and around the country.
    What they do every single day, a remarkable group of people 
are firefighters. So I know all of us, we share in those 
thoughts.
    Let me start with some opening remarks. I will introduce 
our panel, which is a very distinguished panel. I presume many 
of you in the audience know the people at this panel as well as 
I do and respect them immensely. But I wanted to share some 
opening comments and thoughts, and then we will begin this 
conversation about Connecticut and some solutions and ideas.
    I would like to welcome all of you here this morning to our 
second in a series of hearings on the state of the American 
child. The first hearing, as I mentioned, in this series was 
held in June in Washington, DC, and we were lucky enough to 
have as our witness Elaine Zimmerman, with the Connecticut 
Commission on Children. And I look forward to hearing from 
additional Connecticut experts not only today, but in the weeks 
coming.
    It is fitting that we have come together at the Yale Child 
Study Center, where so much good work has been done to 
investigate the problems that children face and to discover 
solutions to meet their needs.
    I would also like to take a moment to thank Dr. Fred 
Volkmar, the head of the Yale Child Study Center, for hosting 
us this morning, and for all of the tremendous work he is doing 
for children in this State and around the country.
    I would also like to thank Dr. Robert Alpern, Dean of the 
Yale School of Medicine, and President Rick Levin for their 
hospitality as well.
    I have had the privilege of working on many of the 
different issues on behalf of the people of Connecticut for the 
last 35 years. But as I have said before, the most rewarding 
work, without any question whatsoever, that I have been 
involved in has been issues affecting children and their 
families.
    And while it comes to helping each American child reach his 
or her potential, a lot falls on the shoulders obviously of 
parents, as I have come to learn as the father of a 5-year-old 
and an 8-year-old over the last several years. I decided to 
have my own grandchildren is what----
    [Laughter.]
    But as parents, we all recognize parents can't do it alone, 
and the welfare of children in this country depends heavily on 
having education, healthcare, and economic policies that give 
families the resources and the support that they need.
    We have learned a lot about what children need to succeed 
during my time in the Congress, and I am proud of the progress 
we have made in many areas. We have helped a generation of 
young children prepare for school through the Head Start 
program. We have worked to provide quality childcare facilities 
and afterschool programs to ensure that learning can truly be a 
lifelong pursuit, not just something that happens during the 
school day.
    We have freed millions of parents from having to choose 
between the job they need and the sick children they want to 
care for through the Family and Medical Leave Act. And we have 
strengthened children's healthcare by reducing the number of 
uninsured children through the CHIP and Medicaid programs, 
preventing tobacco companies from treating our children as 
customers-to-be, spreading awareness of food allergies, and 
reducing premature births.
    Most recently, as a result of a provision I worked closely 
on in the Patient Protection and Affordable Healthcare Act, an 
estimated 41 million American children and their families will 
receive preventive care, such as routine immunizations, regular 
pediatrician visits, and breast and colon cancer screenings at 
no cost.
    But the fact remains that too many children are left behind 
at the starting gate through no fault of their own and through 
no fault of their parents. And as the chairman of the Senate's 
only body specifically focused on children and families, I have 
embarked on a series of hearings to examine where we are 
falling short and devise a strategy for improvement that can 
endure even after I have left the Congress.
    We have recently learned that, tragically, nearly one in 
five American children live in poverty and that by the year 
2012, it will be one in four, the highest rate since the 1960s. 
Right here in Connecticut, one of the wealthiest States in our 
country, 1 in 10 children grows up in poverty. In the city of 
Hartford, nearly half of all children live below the poverty 
line.
    As we struggle to emerge from this devastating recession, 
the economic gap between the haves and have-nots is only 
growing. Even though Connecticut can rightly brag about its 
above-average performance on standardized tests, we have one of 
the country's highest achievement gaps as well. The two gaps 
are, of course, related. One survey of kindergarten teachers 
found that three in four children who couldn't go to preschool 
arrived at kindergarten lacking basic language, literacy 
skills, and basic fundamental math skills.
    And while we have made great strides in keeping our 
children healthy, Connecticut manifests many of the problems 
with low birth weight and childhood obesity that plague our 
Nation as a whole. And like many cities, our neighborhoods and 
homes put children at higher risk for asthma.
    In many ways, Connecticut is a good example of the problems 
we face nationally. Even in a relatively well-off State, too 
many children face overwhelming, even insurmountable, 
disadvantages.
    And while we need to identify and talk about the problems, 
today I want to talk about solutions. I want to talk about what 
we need to do to build a framework for evaluating the efficacy 
of those solutions. Connecticut has lessons to teach the Nation 
in that regard as well.
    Today, we have convened a panel of experts from around our 
State on different aspects of child development. We are going 
to hear about programs helping families who have lost their 
homes to foreclosure to find stable and affordable housing.
    We will hear about an innovative program that works with 
high-risk children and families to help avoid the incidence of 
emotional disturbances, developmental problems, abuse, and 
neglect.
    And we will learn about collaborations between Connecticut 
dentists and Head Start programs, initiatives for fathers, and 
a program that provides children with safe and stable 
environments after school and over summers. We will hear from a 
school superintendent working to address the varied needs of a 
low-income population in her city.
    These programs have proven effective in our State. And if 
we can take the lessons that these leaders have learned and 
make them part of the national agenda and approach to 
children's issues, then I think we can make a difference.
    This is just a selection, obviously. There are many 
brilliant and talented people who have done incredible work 
over many, many years, working for our children. I want to 
thank some of them who are here today.
    Here at Yale, we have Dr. Walter Gilliam and Dr. Steve 
Marans--have I pronounced that correctly?--creating and 
evaluating innovative programs to prevent behavior problems in 
very young children and address childhood trauma. Dr. Scott 
Rivkees, who is doing tremendous work for children's health as 
the director of the Yale Child Health Research Center.
    Edith Karsky and the Connecticut Association for Community 
Action are on the front lines working to prevent childhood 
poverty. And Jeanne Milstein, my great friend, and the Office 
of the Child Advocate, providing oversight and accountability 
on behalf of our children as well.
    We are constantly learning new things about children and 
about what they need to reach their full potential. And we are 
constantly adjusting our policies to try and meet those needs. 
It is critical that we regularly and carefully examine the 
progress of children in America, so that we can assess our 
progress as policymakers as well.
    That is why, at the very first hearing in this series, I 
announced plans to introduce legislation to create a national 
council, a permanent council on children to do just that. This 
body would gather data, analyze trends, issue an annual report 
on the state of the American child, and make policy 
recommendations for improving child well-being. We need a 
national and permanent body at the Federal level whose top 
priority, whose only priority are children and their families, 
improving their lives and looking at their needs in a 
comprehensive manner.
    It has been more than 20 years since the last comprehensive 
report on the status of children. That report made a 
significant contribution to the well-being of children and 
their families.
    In fact, I was going back and looking and just saw the 
child tax credits, the SCHIP program, forerunner of the CHIP 
program. There were many ideas that the Clinton administration 
took from those recommendations, 1989 and forward, that became 
the law of the land and made a difference in children's lives. 
But it has been more than 20 years since we really had such a 
commission established and thus the idea to establish a 
permanent one.
    On Thursday of this week, we will be back--this hearing 
will be back in Washington for the next hearing in our series 
on the state of the American child, which will look at the 
impact of Federal policies on children. We will have witnesses 
from the Departments of Labor, Health, and Education, as well 
as an economist team from the White House. And I look forward 
to taking the lessons we may learn from the innovative 
Connecticut programs back down to Washington, to working with 
my colleagues to turn those good ideas, I hope, into action.
    So I thank all of you again for being with us here today.
    Now let me briefly introduce our panel, and then I am going 
to ask them in the order that I introduce you to share some 
thoughts and comments with us. Then we will begin the 
discussion on some of these ideas and thoughts you bring to the 
table.
    We have nine witnesses today, which is a lot of witnesses 
at a hearing. But I am very grateful to all of them. It is a 
big group, but everyone brings an important and unique 
perspective to the topic of today's hearing.
    I will briefly introduce each of you, but given the time 
constraints, my comments will be rather brief. In introducing 
you, I don't want to shortchange you in terms of your wonderful 
contributions over the years. I will include the full 
biographies in the Congressional Record. How is that?
    [Laughter.]
    After I complete the introductions, what I will ask you to 
do is if you can each take 3 to 5, or 6 minutes or so--I am not 
going to gavel anyone down--to share your thoughts. Your full 
comments, any supporting data, and many of you included data 
with your testimony, I will make a part of the permanent record 
as well for the hearing room.
    That way, we can get to the Q and A and the conversation 
with ourselves, and we may invite the audience as well to raise 
some questions and thoughts as we go forward. Not something we 
normally do with a congressional hearing, but this was sort of 
a different type of a setting anyway for us to be conducting 
this along the way.
    We will keep the record open for 10 days, 2 weeks. I will 
make it 2 weeks. My other colleagues on the committee may have 
some questions as well to submit to people, and I ask you to 
respond to them.
    Dr. Ed Zigler, my good friend, Director Emeritus, Edward 
Zigler Center in Child Development and Social Policy at Yale, 
has been involved in early children issues for decades, as all 
of us in this room, I hope, are aware. And we all owe him a 
tremendous debt of gratitude for the incredible work that he 
has done on behalf of America's children.
    Dr. Zigler's work has improved the lives of innumerable 
families, and we are honored to have you once again, Ed, with 
us here today to talk about childhood development and preparing 
children for school and success in life and the solutions he 
has implemented, beginning with Head Start, Early Head Start, 
whole school reform, and many other efforts over the years.
    Jim Horan is the executive director of the Connecticut 
Association for Human Services in Hartford, CT. Jim is here to 
talk about child poverty and the solutions he has fought for as 
executive director of the Connecticut Association for Human 
Services to end child poverty, as well as to work as an Annie 
E. Casey KIDS COUNT grantee.
    Jim has led the effort to better connect low-income working 
families with the services. And I was pleased to join him last 
March at one of the free tax preparation clinics that the 
Association for Human Services conducted, enabling parents to 
claim the earned income and child tax credits.
    Dr. Darcy Lowell is the executive director of Child FIRST 
Connecticut of Bridgeport Hospital, which I had the privilege 
of visiting--where are you? There you are, over there. Visited 
not long ago. I spent an afternoon at the hospital, a great 
facility.
    She is here to talk about preventing mental illness, 
developmental learning problems among kids, as well as child 
abuse and neglect and the solutions she has proven effective 
with Child FIRST, a model program in Bridgeport that brings 
pediatricians, teachers, and other community leaders together. 
And we thank you for your work as well.
    Dr. Doug Keck is with the American Academy of Pediatric 
Dentistry's Head Start Dental Home Initiative in Madison, CT. 
Dr. Keck is here to talk about the oral health among low-income 
children and the solutions he is part of by leading 
Connecticut's Dental Home Initiative for children enrolled in 
Head Start.
    This innovative program aims to develop a Connecticut 
network of pediatric dentists to provide quality dental homes 
for Head Start, Early Head Start children and train teams of 
dentists in optimal oral healthcare practices. He also serves 
on the clinical teaching staff at the Yale-New Haven Hospital 
and the Yale School of Medicine.
    Abby Dolliver is the newly appointed superintendent of the 
Norwich Public Schools, Norwich, CT. And she is here to 
highlight the programs that meet the academic, physical, and 
social needs of the students in her district. I might point out 
Abby is, truth-in-advertising, the daughter of my long-term 
person around my office, Stanley Israelite. And in 
Connecticut--for those who know Stanley, and Abby is the 
superintendent of schools in Norwich today.
    I lived in Norwich for a number of years, as my parents did 
as well, in a town of around 40,000 people, and you have all of 
the complex issues of a major urban area. And Abby will talk 
about what it is to grapple as a superintendent of schools 
today with all of the issues that are identified here and 
trying to see that they get the proper education of how 
important that school setting is.
    Before accepting the position of superintendent, Abby 
worked as a special education director, creating programs for 
students on the autism spectrum. Her understanding of the 
importance of developing the whole child stem from her work as 
a social worker for some 13 years prior to that as well.
    Tammy Papa is the director of the Bridgeport Lighthouse 
Program. I have worked for many years with this program. Talk 
about afterschool education and the solutions that she has 
discovered through the Lighthouse Program. She has been 
actively involved in planning and implementing afterschool 
programs for 17 years and has done a remarkable job. Her 
dedication to the issue was acknowledged in 2005 when she was 
awarded the Children's Champion Award from the Connecticut 
After School Network. She also acts as an appointee member of 
the Connecticut After School Advisory Committee and co-chairs 
the Bridgeport After School Network.
    Kellyann Day is the executive director of the New Haven 
Home Recovery in New Haven, CT, here in the city. She is here 
to talk about child homelessness and the solutions she has 
worked on with New Haven Home Recovery. She has worked with 
homeless children and families for 20 years, giving her key 
insights into what works and what doesn't. And again, when you 
read or hear her testimony today, the statistics are just 
daunting when it comes to the issue of what happens to children 
who are homeless.
    She has served on numerous boards throughout the State, 
including New Haven Early Childhood Council, the Connected 
Coalition to End Homelessness, New Haven Mayor's Task Force on 
AIDS, South Central Behavioral Health Network, the city of New 
Haven's 10-Year Plan to End Homelessness, and many others.
    Doug Edwards is the founder and program director of Real 
Dads Forever, Manchester, CT. This program teaches fathers the 
importance of home environment in child development and 
challenges them to examine their commitments to their families, 
themselves, and their personal success. He has consulted with 
Connecticut's Department of Social Services, Department of 
Education, Department of Children and Families, the Department 
of Public Health, and many other organizations. And we thank 
him.
    Dr. Lisa Honigfeld--did I pronounce that correctly?
    Ms. Honigfeld. Yes, you did.
    Senator Dodd [continuing]. Is the vice president for Health 
Initiatives for the Child Health and Development Institute of 
Connecticut, CHDI, in Farmington, CT. She oversees CHDI's 
efforts to strengthen the quality and accessibility of primary 
and preventive healthcare for children and families. In 
addition to numerous positions in health services research and 
pediatric primary care, Dr. Honigfeld also has a faculty 
appointment at the University of Connecticut School of 
Medicine.
    Well, that was a lot to go through with all of you here. 
And as I said, that is the abbreviated version of their 
resumes. I spared you.
    [Laughter.]
    I mentioned earlier, just going back, and I kept a note on 
this. But just looking at some of the stuff that happened on 
that earlier commission on children that started in 1987, 
didn't get underway until 1989, was charged with assessing the 
status of children and families. And from that blueprint, the 
Clinton administration enacted policies including the earned 
income tax credit, the child tax credit, the State Children's 
Health Insurance Program, and many others. Out of all that, 
came one blueprint. So it was very, very valuable that that 
worked some 20 years ago.
    Well, again, I thank all of you for being here. Ed, we will 
begin with you and your thoughts and comments. Then we will 
move down in the order that I have introduced people, and then 
we will start the conversation.
    Ed, thank you. You are going to have to pull this closer.

 STATEMENT OF EDWARD ZIGLER, Ph.D., DIRECTOR EMERITUS, EDWARD 
  ZIGLER CENTER IN CHILD DEVELOPMENT AND SOCIAL POLICY, YALE 
                   UNIVERSITY, NEW HAVEN, CT

    Mr. Zigler. Thank you, Senator.
    On behalf of all my colleagues at Yale, allow me to welcome 
you to Yale. I want to take 10 seconds of personal privilege 
and speaking not to you, but rather to your constituents here 
in the audience.
    I know many of you, and as many of you know, I have worked 
in some capacity as a consultant to every administration since 
that of Lyndon Johnson. Over that 45-year period, I have 
witnessed a great number of Senators and members of the House, 
and I would just like to state for the record that in my own 
lifetime, I have never met a Congressperson who has been a more 
effective, active, and dedicated advocate for children and 
families than our own Senator Dodd, and I would like to 
congratulate him on that record.
    Senator Dodd. Thank you.
    [Applause.]
    Mr. Zigler. Now let me put on my professorial hat. I have 
been studying human development now for 55 years, and I have 
come to the conclusion that there are four major systems, all 
in interaction, so they are synergistic, four systems that are 
the primary determinants of the child's growth and development.
    The first, and by far the most important, is the family. 
Then there is the health system, then the education system the 
child experiences, and finally, the childcare, where the 
majority of children spend the first 5 years of their life 
prior to school entry.
    The family today is experiencing so much stress that it has 
difficulty in performing its primary child-rearing 
responsibilities. Thanks to Federal legislation like SCHIP, the 
health system has improved for children but is still far from 
perfect.
    We have known that the education system in this country is 
far from excellent ever since the publication many years ago of 
``The Nation at Risk.'' Our Nation's non-childcare system 
actually harms millions of children, as I documented in my 
recent book, ``The Tragedy of Childcare in America.''
    This morning, I would like to acquaint you with a whole 
school reform model that my colleague Matia Finn-Stevenson and 
I have now successfully put into place in this country. These 
new schools have been named Schools of the 21st Century. 
However, the 60 schools in Connecticut, mounted originally 
through the efforts of John Larson, and the statewide system of 
schools in Kentucky are called Family Resource Centers.
    The purpose of these schools was to positively impact each 
and every one of the four systems that we know largely 
determine the child's development. Given my long involvement 
with our Nation's groundbreaking Head Start program, 
unsurprisingly, the theoretical principles underlying the 21C 
school model are similar to those of Head Start. The schools 
adopt a whole child approach through which we attempt to 
positively impact the child's cognitive development, social-
emotional development, and the child's mental and physical 
health.
    Thus, like Head Start, our schools provide comprehensive 
services that go far beyond the standard provision of academic-
focused education alone. Like Head Start, parents are viewed as 
the most important determinant of their children's growth, and 
parents are deeply and actively involved in each and every 
School of the 21st Century and Family Resource Center. This 
aspect of Schools of the 21st Century is very similar to that 
of the very successful Child-Parent Centers now to be found 
throughout the city of Chicago.
    A particularly innovative aspect of 21C schools is that the 
child is enrolled in the neighborhood school as close to the 
child's conception as possible and no later than birth. Upon 
the birth of the child, the school sends a home visitor to the 
home, and these home visits continue for 3 years and employ the 
parents-as-teachers home visiting model, which has been 
implemented in every school in the State of Missouri.
    These home visits focus on the parents' knowledge of human 
development, as well as in motivating parents to become as an 
effective first teacher of the child as possible. At the age of 
3, the child physically begins attending school in a high-
quality, 2-year preschool program rather than the 1-year 
preschool program that has become so commonplace in our Nation.
    The preschool day is as long as the work day of mothers and 
fathers, rather than the usual half-day program or school day 
program, which usually ends around 2:30 p.m. or 3 p.m. Thus, 
one of our schools in Bridgeport is actually called the ``6 to 
6'' school. This allows children to receive both preschool and 
afterschool care.
    Thus, our preschools provide not only preschool education, 
but childcare as well. This before and afterschool care 
continues in the school until the child is approximately 12 
years of age. Each school also mounts a health education 
component for parents and health services for children, which 
include improved nutrition practices.
    Many of the children in the schools' catchment area are 
attending private childcare. Our schools are aware that these 
children will eventually come to the school at age 5. Thus, the 
schools provide outreach and training to these independent 
childcare centers, thus improving the childcare experience of 
these non-school enrolled children.
    Our schools also act as brokers for human services that 
already exist in the community. Thus, each school is also a 
resource and referral center in order to satisfy the other 
needs that the school's families have.
    From age 3 to age 12, 21C parents have the childcare they 
need for their children. This should reduce the stress that 
parents experience in dealing with the childcare problem, and 
our research shows that it does reduce stress in parents.
    Research clearly indicates that the more parents are 
involved in their children's education, the better the child's 
educational performance. Like Head Start, parent involvement is 
a basic pillar of the Schools of the 21st Century. This model 
has grown exponentially since its introduction some 20 years 
ago.
    It began originally in Independence, MO, with two schools. 
Thanks to John Larson, we began with three schools here in 
Connecticut, and we now have 60 in this State. Interestingly, 
when Governor Rell recently wanted to cut Family Resource 
Centers from the budget, parents of these schools rose up and 
demanded that the Family Resource Centers continue, and that is 
now the case.
    These schools can now be found in over 20 States. This 
model has now been embraced by over 1,300 schools, making it 
the largest whole school reform model in America.
    The primary catalyst for this program has been parents 
themselves. Once they become aware of a School of the 21st 
Century in the next district, they demand to have one in their 
own district. Kentucky has now gone statewide with this model, 
and Arkansas is also moving to a statewide program, having 
already put into place over 160 21C schools.
    I am both a pragmatist and empiricist and a strong believer 
in accountability. Thus, from its inception, we have included a 
strong evaluation component into the Schools of the 21st 
Century.
    The evidence of the value of these schools is contained in 
a series of positive findings associated with them. In addition 
to lower stress levels, we have found much less vandalism in 
our schools, and studies conducted both in Missouri and 
Arkansas showed students in 21C schools had superior 
performance across a broad array of academic abilities than did 
the comparison children.
    For example, in the Independence School District of fourth 
grade students, over 70 percent of them had proficient scores 
or better on literacy tests, whereas the national average in 
this entire country is only about 33 percent.
    In a recent unpublished study, we found that child abuse in 
the Independence district was reduced by two-thirds in 
comparison with another comparable school district in Missouri. 
Since child abuse is primarily a stress phenomenon, stress 
impinging on parents, this is not surprising since we 
discovered much earlier that 21C schools reduce the stress 
level of parents.
    I conclude my testimony with a single recommendation. The 
Department of Education of this country should spend some of 
its school reform funds in bringing the 21C model to the 
attention of the Nation and provide grants to schools to 
provide the seed money necessary for startup activities.
    I will conclude my testimony where I began. I would like to 
express to Senator Dodd my own personal deep gratification at 
having the opportunity to work closely with him and see all of 
his accomplishments over several decades.
    Thank you.
    [The prepared statement of Mr. Zigler follows:]

               Prepared Statement of Edward Zigler, Ph.D.

    There are four major synergistic systems that are the primary 
determinants of the child's development. The first and most important 
is the family. Then there is the health system, the education system 
the child experiences and finally child care where the majority of 
children spend the first 5 years of their life prior to school entry. 
The family today is experiencing so much stress that it has difficulty 
in performing its primary child rearing responsibilities. Thanks to 
Federal legislation the health system has improved for children but is 
still far from perfect. We have known that the education system is far 
from excellent ever since the publication of The Nation at Risk. Our 
Nation's non-child care system actually harms millions of children as I 
documented in my recent book The Tragedy of Child Care in America.
    This morning I would like to acquaint you with a whole school 
reform model that my colleague Matia Finn-Stevenson and I have now 
successfully put into place in this country. These new schools have 
been named Schools of the 21st Century. However the 60 schools in CT 
(mounted originally through the efforts of John Larson) and the 
statewide system of schools in KY are called Family Resource Centers. 
The purpose of these schools was to positively impact each and every 
one of the four systems that we know largely determines the child's 
development.
    Given my long involvement with our Nation's groundbreaking Head 
Start program, unsurprisingly the theoretical principles underlying the 
21C school model are similar to those of Head Start. The schools adopt 
a whole child approach in which we attempt to positively impact the 
child's cognitive development, social emotional development and the 
child's mental and physical health. Thus like Head Start our schools 
provide comprehensive services that go far beyond the standard 
provision of academic-focused education only. Like Head Start, parents 
are viewed as the most important determinant of their children's growth 
and parents are deeply and actively involved in each and every School 
of the 21st Century. This aspect of Schools of the 21st Century is very 
similar to that of the very successful Child Parent Centers in the city 
of Chicago.
    A particularly innovative aspect of 21C schools is that the child 
is enrolled in the neighborhood school as close to the child's 
conception as possible and no later than birth. Upon the birth of the 
child the school sends a home visitor to the home and these home visits 
continue for 3 years and employ the Parents As Teachers home visiting 
model which has been implemented in every school in the State of 
Missouri. These home visits focus on the parents' knowledge of human 
development as well as motivating parents to become an effective first 
teacher of the child as possible.
    At the age of 3 the child physically begins attending school in a 
high quality, 2-year preschool program rather than the 1-year preschool 
program that has become so common place in our Nation. The preschool 
day is as long as the work day of mothers and fathers rather than the 
usual half-day program or school-day program which usually ends around 
2:30 p.m. or 3 p.m. Thus one of our schools in Bridgeport is actually 
called the ``6 to 6'' school. This allows children to receive both 
preschool and afterschool care. Thus our preschools provide not only 
preschool education but child care as well. This before and afterschool 
care continues in the school until the child is approximately 12 years 
of age. Each school also mounts a health education component for 
parents and health services for children which include improved 
nutrition practices. Many of the children in the schools catchment area 
are attending private child care. Our schools are aware that these 
children will eventually come to the school at age 5. Thus the schools 
provide outreach and training to these independent child care centers 
thus improving the child care experience of these non-school enrolled 
children.
    Our schools also act as brokers for human resources that already 
exist in the community. Thus each school is also a resource and 
referral center in order to satisfy the other needs that the school's 
families have. From age 3 to age 12 the 21C parents have the child care 
they need for their children. This should reduce the stress that 
parents experience in dealing with the child care issue and our 
research shows that it does. Research clearly indicates that the more 
parents are involved in their children's education the better the 
child's educational performance. Like Head Start parent involvement is 
a basic pillar of Schools of the 21st Century.
    This model has grown expedientially since its introduction some 20 
years ago. It began originally in Independence, MO with 2 schools. 
Thanks to John Larson we began with 3 schools here in CT and we now 
have 60. Interestingly when Governor Rell recently wanted to cut Family 
Resource Centers from the budget, parents rose up and demanded that the 
Family Resource Centers continue and that is now the case. These 
schools can now be found in over 20 States. This model has now been 
embraced by over 1,300 schools making it the largest whole school 
reform model in the Nation. The primary catalyst for this program has 
been parents themselves. Once they become aware of the Schools of the 
21st Century in the next district they demand to have one of their own. 
Kentucky has now gone statewide with this model and Arkansas is also 
moving to a statewide program, having already put into place over 160 
21C schools.
    I am both a pragmatist and empiricist and a strong believer in 
accountability. Thus from its inception we have included a strong 
evaluation component into the Schools of the 21st Century. The evidence 
of the value of these schools is contained in a series of positive 
findings associated with these schools. In addition to lower stress 
levels, we have found much less vandalism in our schools and studies 
conducted both in MO and AK showed students in 21C schools had superior 
performance across a broad array of academic abilities than did the 
comparison children. For example in the Independence school district, 
4th grade students over 70 percent had proficient scores or above 
whereas the national average is about 33 percent. In a recent 
unpublished study we found that child abuse in the Independence 
district was reduced by two-thirds in comparison with another 
comparable school district in MO. Since child abuse is primarily a 
stress phenomenon this is not surprising since we discovered much 
earlier that 21C schools reduce the stress level of parents. I conclude 
my testimony with a single recommendation. The Department of Education 
should spend some of its school reform funds in bringing the 21C model 
to the attention of the Nation and provide grants to schools to provide 
the seed money necessary for startup activities.

    Senator Dodd. Thank you, Ed, very, very much.
    [Applause.]
    Jim Horan. Jim.

 STATEMENT OF JAMES P. HORAN, EXECUTIVE DIRECTOR, CONNECTICUT 
          ASSOCIATION FOR HUMAN SERVICES, HARTFORD, CT

    Mr. Horan. Good morning, Senator Dodd and distinguished 
guests. Thank you for the opportunity to testify on the state 
of the American child.
    I am the executive director of the Connecticut Association 
for Human Services. This year, CAHS celebrates 100 years of 
advocacy to improve the lives of children and families in 
Connecticut, with a focus on policies and programs that create 
family economic success. I will summarize the written testimony 
that I have submitted.
    First, thank you, Senator Dodd, for championing big-picture 
issues like healthcare and financial reform and issues that 
directly affect kids, like Head Start and Childcare and 
Development Block Grants. We will really miss your leadership.
    Second, I want to emphasize the importance of timely, 
accurate data. As the Annie E. Casey Foundation's KIDS COUNT 
grantee, we know how important this is and what is now lacking. 
Thank you for sponsoring legislation to expand the National 
Survey of Children's Health and the Measuring American Poverty 
Act.
    The Casey Foundation releases the National KIDS COUNT Data 
Book tomorrow. It includes data up until 2008, and it shows 
that improvements in the condition of children that began in 
the late 1990s stalled even before the current recession began.
    Three data points on the current state of children in 
Connecticut. Child poverty was rising before the recession, 
from 10.5 percent in 2004 to 12.5 percent in 2008. That is 
despite Connecticut having the Nation's first child poverty 
target.
    We know what to do to reduce poverty, including modeling 
that was done by the Urban Institute of top recommendations of 
the State's Child Poverty and Prevention Council. But the 
Governor and the legislature never made the necessary 
investments to reduce poverty.
    On education, only 40 percent of Connecticut fourth graders 
are reading proficient, according to NAEP scores. That is the 
second-best in the Nation, but we need to raise proficiency for 
all kids. Connecticut is making modest progress in reducing the 
huge achievement gap between whites and kids of color, but it 
is not good enough.
    The news is better on health, where SCHIP--HUSKY in 
Connecticut--has reduced the percentage of uninsured kids to 
just 5.4 percent, about half the level for adults. And this 
trend should continue with the passage of CHIP reauthorization; 
national health reform, which you led efforts on; and universal 
healthcare legislation in Connecticut.
    Given the recession and indicators that are moving in the 
wrong direction, what do we do now? At the Federal level, we 
urge you to help extend Federal earned income tax credit, SNAP, 
and FMAP; reauthorize the Child Nutrition Act; focus on job 
creation. These investments will pay off.
    In Connecticut, with a new Governor after November, we will 
try again to create a State earned income tax credit to reward 
low-wage work. On education, CAHS will soon release a report on 
reading success in the early grades, and we are working to 
expand the State's successful School Readiness program and to 
create a true system of early care and education in 
Connecticut.
    We have created a New England consortium to reduce child 
and family poverty, working with our colleagues, and child 
advocates across the region to advocate for change at the 
Federal level. Since the recession began, CAHS has stepped up 
efforts to improve access to the Federal earned income tax 
credit, like the VITA site you visited in Bridgeport last year; 
food stamps, now called SNAP; and other benefits.
    We use an electronic screening tool called EarnBenefits 
Online and work with partners and communities across the State. 
Last year, we started the Connecticut Money School, the 
country's second statewide financial education project with 
potential to become a national model. Information on all of 
these efforts is on our Web site, www.cahs.org.
    Good results can come about if we all work together and 
engage those most affected by poverty and poor-quality 
education. We need the political will to make the changes that 
data and evaluation demonstrate will work.
    You mentioned, Senator Dodd, that we are headed for the 
highest child poverty rate since the 1960s. Poverty rates at 
that time led to President Johnson creating the war on poverty. 
Poverty at that time in that year had decreased by 50 percent 
nationally. And even though the war on poverty is often 
considered a failure, in fact, many of the gains that we made 
at that time have been sustained.
    You mentioned the council in the late 1980s and the 
recommendations that the Clinton administration helped to 
implement. There was a 25 percent reduction in child poverty 
during the 1990s. But those gains have not been sustained. We 
need a focused effort like the one you are talking about to 
help make good things happen, and we appreciate your 
leadership.
    [The prepared statement of Mr. Horan follows:]

                  Prepared Statement of James P. Horan

    Good morning, Senator Dodd. I am Jim Horan, executive director of 
the Connecticut Association for Human Services. Thank you for the 
opportunity to testify at the second hearing in this series on the 
State of the American Child. This year, CAHS celebrates 100 years of 
advocacy to improve the lives of children and families in Connecticut, 
with a focus on policies and programs that create family economic 
success.
    CAHS and other child advocates have long admired and appreciated 
your leadership in the Senate not only on financial and health reform, 
but on issues directly affecting children, including Head Start, Child 
Care and Development Block Grants, and Family and Medical Leave.
    You have been a champion on children's issues throughout your 
distinguished tenure in the Senate, and these hearings help lay the 
groundwork for continued progress on issues critical to children, 
including the potential for a national Commission on Children, even 
after you leave the Senate. Connecticut's Commission on Children has 
done such important work over the past 20 years.
    As the Annie E. Casey Foundation's KIDS COUNT grantee in 
Connecticut, CAHS gathers and releases data on child and family well-
being to inform policymakers and our own advocacy work at the State 
Capitol in Hartford and in Washington. Therefore, CAHS understands the 
importance of timely, accurate data. We thank you, Senator Dodd, for 
your current sponsorship of legislation to expand the National Survey 
of Children's Health, and your lead sponsorship of the Measuring 
American Poverty (MAP) Act. We are very pleased that the Obama 
administration is working to address the latter issue with the 
Supplemental Poverty Measure (SPM).
    The most recent available data is outdated. Right now, that means 
that we lack current data on the impact of the recession on children 
and families. Patrick T. McCarthy, president and CEO of the Casey 
Foundation, recently noted:

          ``the reality is that we can only go so far without needed 
        improvements to our data collection systems. None of us has a 
        good grasp on the conditions facing America's children because 
        State and Federal agencies collect data too infrequently, and 
        often do not measure what really matters for kids.''

    The Casey Foundation will release the national Kids Count data book 
tomorrow. The most recent data available, from 2008, shows child 
poverty rising both nationally and in Connecticut. Overall improvements 
in child well-being that began in the late 1990s stalled in the years 
before the current recession began, both nationally and in our State.
    Of course, the statewide picture of Connecticut does not tell the 
full story. Often, Connecticut looks better than other States in 
national rankings on the well-being of children. But when data is 
disaggregated by community and by race, it is clear that kids in 
Connecticut of color and in our larger cities fare poorly. That is why 
it is important to increase the sample size of the American Community 
Survey (ACS), to provide more precise data for urban neighborhoods, as 
well as rural communities.
    I would briefly like to look at data trends in three areas, to show 
what is happening to children in Connecticut, including areas where 
government actions are helping, and where they were failing to do so, 
even before the recession began.

    <bullet> Poverty in Connecticut was rising before the deep economic 
downturn. The child poverty rate was basically flat from 2000 to 2004, 
and then rose from 10.5 percent to 12.5 percent in 2008. This is 
especially disappointing since following the passage in 2004 of a State 
target to reduce child poverty in half, by 2014. This legislation, the 
first in the Nation, created good recommendations but practically no 
investment from the Governor and legislature. The increase of 13,000 
kids in poverty will rise with the recession, as many parents have lost 
their jobs. And as previously noted, the relatively low rate of child 
poverty statewide masks the disturbing rates of child poverty in many 
urban communities. Hartford's child poverty rate of 46 percent in 2008 
is among the highest of any city in the Nation, an increase from 41 
percent in the 2000 census.
    <bullet> In Education in 2009, Connecticut had the second highest 
level of fourth grade reading proficiency in the Nation, behind only 
Massachusetts, according to the National Assessment of Educational 
Progress (NAEP). Despite the high national ranking, only 40 percent of 
Connecticut fourth graders were proficient, compared to 32 percent 
nationally, showing how poorly Connecticut and all States are doing. 
And again, the data is worse when disaggregated. NAEP data show 53 
percent of White Connecticut fourth graders were proficient readers, 
compared to 22 percent of Blacks and 15 percent of Hispanics. A small 
piece of good news in these distressing data is that the gap between 
Black and White students narrowed in recent years, due to gains by 
Black students between 2003 and 2009.
    <bullet> On Health, there is encouraging news that despite the 
decline in insurance provided by employers, the number of uninsured 
kids in Connecticut declined in recent years because of HUSKY, the 
State Children's Health Insurance Program. More kids were covered in 
2009 than in 2003, and only 5.4 percent were uninsured, about half the 
rate of adults. The positive trends on children's health should 
continue, with the reauthorization of CHIP last year, and the passage 
of national health reform that you helped to shepherd through Congress 
earlier this year, Senator Dodd. Connecticut's passage of universal 
health care legislation in 2009 puts the State in a very good position 
for implementation of Federal health reform.

    While the news is positive on health care, a lot more needs to be 
done to reduce poverty and improve education for children in our Nation 
and State. These are critical factors for children that underlie many 
other indicators, and affect them throughout their lives. We know what 
needs to be done to create better outcomes for children and families. 
We just need the political will and leadership to make it happen, in 
Washington, in Hartford, and in our communities.
    With the indicators headed in the wrong direction, poverty is the 
toughest nut to crack. The American Recovery and Reinvestment Act 
(ARRA, the stimulus) stopped the recession from deepening. It also 
expanded SNAP (formerly food stamps) and the EITC, expansions that 
should be made permanent. While ARRA prevented the loss of millions of 
jobs, it has not yet resulted in the creation of many new jobs to 
replace those lost. This is crucial for poverty reduction. Congress 
must have the courage to continue stimulus measures, including 
additional FMAP Medicaid funding for States to avoid a $265 million in 
the current Connecticut budget. And new stimulus funding is needed for 
schools, to prevent significant local teacher layoffs, like those we're 
seeing in New Britain and towns across Connecticut. Pending 
reauthorization of the Child Nutrition Act, with more money for 
healthier school meals and after-school programs, will also help.
    On education, Race to the Top prompted State education reform 
legislation this past year. More needs to be done, especially to close 
the achievement gap between whites and kids of color. Action is needed 
not only to ensure that every child achieves his or her full potential, 
but also so that Connecticut and the United States can compete in the 
global economy with a highly-educated workforce.
    At CAHS, in partnership with our funders and other nonprofit 
organizations, we're taking action to improve the well-being of kids, 
with some positive results. To reduce child poverty, CAHS led efforts 
in 2006 and 2007 to create a State Earned Income Tax Credit, modeled on 
the very successful Federal EITC. This was a top recommendation of the 
Connecticut Child Poverty and Prevention Council, but Gov. Rell vetoed 
it twice. In 2008, CAHS was launching a broad-based ``Opportunity and 
Prosperity Campaign.'' As the economy tanked, that no longer seemed 
viable. CAHS shifted gears to expand our Federal EITC and SNAP 
(formerly food stamps) outreach. Earlier this year, we launched 
EarnBenefits Online, a screening program that can complete applications 
for up to 13 State and Federal benefits, including SNAP, HUSKY, and the 
EITC. We are working with 13 community partners in five cities, with 
support from six foundations, using a tool developed by Seedco, a New 
York-based nonprofit.
    Last year, CAHS started the Connecticut Money School, which offers 
financial education classes. This partnership with the United Way of 
Connecticut and nonprofits in our three largest cities is only the 
second statewide financial education project, and a potential national 
model. CAHS also started a multi-faceted family economic success 
program in Bridgeport with the support of the local United Way and 
banks.
    On education, our primary focus is to close the achievement gap 
while raising the performance of all students, from early childhood 
through post-secondary. With support from the Graustein Memorial Fund, 
CAHS is working with advocates including the Connecticut Early 
Childhood Alliance, Connecticut Voices for Children, and Connecticut 
Parent Power, to regain Connecticut's former status as a national 
leader. New investments are needed, especially to expand the State's 
successful School Readiness program to more children in low-income 
communities, and to create a true system of early childhood education. 
CAHS has a forthcoming report with recommendations on how to help all 
students become reading proficient by the end of third grade. This is a 
major focus of the Annie E. Casey Foundation, which is partnering with 
philanthropies across the country, including the Graustein Memorial 
Fund in Connecticut. And last year, CAHS published a report on 
strengthening the role of Connecticut's community colleges in educating 
adult workers--because kids need parents who earn wages that can 
support their families.
    This work is not enough to reverse negative trends for kids in our 
State and country. Continued leadership at the Federal level is 
critical. Most recently, CAHS has teamed up with Connecticut Voices for 
Children and our Kids Count and Voices for America's Children 
counterparts across the region to create the New England Consortium to 
reduce child and family poverty. We're working together on data, policy 
solutions in our States, and an emerging Federal agenda. With our 
strong regional congressional delegation, we think this may be where we 
can make the greatest difference, and create a model for advocates 
nationally. You can check out our collective work at 
www.endpovertynewengland.org. We are moving beyond strengthening the 
safety net to creating real pathways to opportunity for children and 
their families.
    The State of the American Child in 2010 is fragile and 
unacceptable. But there are actions the Federal Government can take, as 
it has done in the past and is doing now on health care, to improve 
child well-being, especially with regard to poverty and education. And 
there is a role for all of us--in State and local government, 
nonprofits, education, as parents and community leaders. We need to 
engage everyone, especially those most effected by the negative 
consequences of poverty and poor quality education, to make the 
necessary changes. Maintaining the status quo has serious negative 
consequences for these children and for the economy. As Harry Holzer 
and his colleagues at Georgetown University and the Urban Institute has 
written, child poverty has lifelong impacts on workforce productivity, 
crime, health, and ultimately on our Gross Domestic Product.
    The challenges to improving child well-being seem daunting, 
especially in the midst of the Nation's most serious economic downturn 
since the recession. But the economy will recover, and we need to 
ensure that everyone will share in it. Working together, with good data 
and a clear focus on improving the future for our children, we can 
adopt policies and make investments that ensure that our country's 
brightest days are ahead of us.
    Thank you for holding this hearing, Senator Dodd, and inviting CAHS 
to testify. We look forward to continuing to work with you on this 
important initiative.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    FPL is Federal Poverty Level. Data for 2000 are from the Decennial 
Census, Summary File 3, Table P87, Poverty Status in 1999 by Age. Data 
from 2002 are from the American Community Survey (ACS), Table P114, 
Poverty Status in the Past 12 Months by Sex and Age. Data for 2004, 
2006, 2008 are from ACS, Table B17001, Poverty Status in the Past 12 
Months by Sex and Age. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dodd. Thanks, Jim, very, very much.
    [Applause.]
    Dr. Lowell.

  STATEMENT OF DARCY LOWELL, M.D., EXECUTIVE DIRECTOR, CHILD 
         FIRST CT, BRIDGEPORT HOSPITAL, BRIDGEPORT, CT

    Dr. Lowell. Good morning.
    Senator Dodd and esteemed colleagues, I am extremely 
honored to be here testifying today. Senator Dodd, I want to 
thank you for all of the hard work you have done on behalf of 
children and families. It has made an incredible difference, 
and we will sorely miss you.
    I am a developmental behavioral pediatrician. My name is 
Dr. Darcy Lowell. I am an associate clinical professor here at 
Yale School of Medicine and the executive director of Child 
FIRST Connecticut. I have been working with young children and 
families for over 25 years in this State.
    I have been asked to focus my testimony on our work of 
Child FIRST, which is a new and innovative model and an 
approach to the extreme challenges that our children and 
families are facing today.
    Child FIRST specifically targets the most vulnerable young 
children and families, prenatally through age 5 years, and 
these are children who have early behavioral and developmental 
problems. And we target the highest-risk families who suffer 
from maternal depression, substance use, domestic violence, 
poverty, homelessness, among many other risks. Our goal is to 
prevent emotional and behavioral problems, developmental and 
learning disabilities, and abuse and neglect.
    We identify children at the earliest possible time, both 
through formal screening as well as through referrals from over 
70 agencies in the greater Bridgeport area because of the 
strength of our collaborative process. Especially, when they 
come from pediatrics, from early care and education, from the 
schools, and from our Department of Children and Families.
    We then provide a home visiting intervention to the child 
and entire family with an expert clinical team. Our approach is 
based on the most current scientific research on brain 
development, which has made it very clear that extreme stresses 
in the environment are toxic to the architecture of the 
developing brain. They cause damage that result in not just 
short-term, but long-term impairment in mental health, in 
learning, cognition, and in physical health as well. This does 
not go away.
    Therefore, our intervention takes a two-pronged approach. 
No. 1, we connect families with comprehensive, well-
coordinated, community-based services and supports, using all 
the rich kinds of services we have in our communities already. 
This system of care approach directly decreases the 
environmental stress and provides the growth-promoting 
experiences for young children.
    So we get parents, if they need it, substance abuse 
treatment. If they need to find new homes, if they need job 
training, that is the kind of thing we get the parents. And for 
children, we will get them involved, of course, in early care 
and education, so critical, but in special ed services or 
birth-to-3 services, as necessary.
    And then, No. 2, we provide parent-child therapeutic 
intervention to promote a nurturing, responsive parent-child 
relationship. The important thing is that this relationship has 
been documented to buffer or protect the developing brain from 
what Jack Shonkoff terms ``toxic stress'' and promotes strong 
social, emotional, and cognitive development.
    Furthermore, our team also works in early care and 
education and the schools. So we take a very comprehensive 
approach. Now, how do we know this works? We have been working 
on this model for over 10 years, and we have conducted a 
randomized control trial, which is the gold standard for 
scientific research.
    We have 12-month outcomes that have demonstrated that Child 
FIRST children had a very significant decrease in aggressive 
and defiant behaviors and improvement in language development. 
Mothers reported significantly less stress, depression, and 
anxiety. There was a significant decrease in referral to DCF 
for child protective services, and the Child FIRST intervention 
families were able to access 91 percent of desired services, as 
opposed to 33 percent in our usual care controls. These 
outcomes will significantly contribute to closing our 
achievement gap.
    Based on the strength of this research, the Robert Wood 
Johnson Foundation has provided $3.2 million toward funding a 
public-private partnership with Connecticut State government 
and philanthropy to replicate the Child FIRST model. We are now 
in five cities across Connecticut, including some of our most 
challenged--Hartford, New Haven, Waterbury, and Norwalk.
    From a cost-benefit perspective, if we just compare the 
cost of Child FIRST services for a single family, which is 
$5,000 to $6,000, with the cost for psychiatric hospitalization 
for a single child for a year, which is well over $700,000, our 
return on investment is very clear. Child FIRST is a very 
promising, evidence-based model that can address ethnic, 
racial, and socionomic disparities with a goal of closing the 
achievement gap.
    We have the knowledge. We must now develop the will to 
restructure systems and target our resources so that our most 
vulnerable children and families can succeed.
    Thank you so much.
    [The prepared statement of Dr. Lowell follows:]

                Prepared Statement of Darcy Lowell, M.D.

    Senator Dodd and esteemed colleagues, I am extremely honored to be 
testifying today on efforts to improve the lives of the most vulnerable 
young children and their families in Connecticut. My name is Dr. Darcy 
Lowell. I am a developmental and behavioral pediatrician, executive 
director of Child FIRST CT, an Associate Clinical Professor of 
Pediatrics and the Child Study Center here at the Yale University 
School of Medicine, and Section Chief of Developmental and Behavioral 
Pediatrics at Bridgeport Hospital. I have been working with high risk, 
very young children and their families for 25 years.
    Many of Connecticut's young children and families are suffering. 
With the recession, greater numbers are not only experiencing poverty, 
but the number and complexity of accompanying environmental risks 
appear to be rising rapidly. We need to be alarmed. Those children who 
make up the largest proportion of the achievement gap in our State are 
precisely those whose home environments have multiple, recurrent, and 
unrelenting challenges. The most current neuroscientific research has 
made it clear that stresses in the environment, like maternal 
depression, substance use, domestic violence, homelessness, and child 
abuse and neglect, are toxic to the architecture of the developing 
brain, causing damage that results in lifelong impairment in mental 
health, learning, and physical health. It is therefore imperative that 
we intervene as early as possible with comprehensive, intensive 
approaches based on scientific knowledge and proven outcomes.

                           CHILD FIRST MODEL

    Throughout the country, policymakers and providers have been 
struggling to find models to address the needs of our highest risk, 
most vulnerable, and most costly children and families. Today, I am 
going to speak briefly about a model intervention system developed in 
Greater Bridgeport, CT, called Child FIRST. This stands for Child and 
Family Interagency, Resource, Support, and Training. Child FIRST 
specifically targets the most vulnerable young children, prenatally 
through age 5 years, and their families to prevent emotional and 
behavioral problems, developmental and learning disabilities, and abuse 
and neglect. By identifying these children at the earliest possible 
time and providing comprehensive, intensive, home-based intervention, 
we hope to address the racial and ethnic disparities in health and 
education and help close the achievement gap.
    Child FIRST developed from the ground up, based on community need, 
first beginning approximately 12 years ago. Children with developmental 
and emotional problems were ``falling through the cracks.'' Families 
wanted to do their best, but had overwhelming challenges and were not 
getting the services or supports they needed. Providers delivered 
quality services, but they were narrow and categorical, without 
resources to attend to--or even recognize--the intensity and breadth of 
family problems. It was clear, however, that one could not address the 
needs of the child without attending to the challenges and stresses 
experienced by the whole family. Only then could parents be available 
to nurture and support the development of their children.
    Child FIRST is a new model for an early childhood intervention 
system. It has two essential components, which are based on what we 
know about the developing brain:

    (1) Comprehensive, integrated services and supports are wrapped-
around the child and family. This ``system of care'' approach directly 
decreases the environmental stress (e.g., through housing assistance, 
domestic violence intervention, substance abuse treatment) and provides 
growth promoting experiences for the child (e.g., through early care 
and education, early intervention for developmental delays);
    (2) Direct intervention with the child and parents to promote a 
nurturing, responsive, parent-child relationship. This relationship has 
been documented to buffer or protect the developing brain from ``toxic 
stress,'' at the same time that it leads to strong social-emotional and 
cognitive development.

    Children in need of Child FIRST intervention may be identified 
directly by caregivers or by any child or adult community provider 
(e.g., Department of Children and Families, early care and education, 
pediatrics, domestic violence shelter, adult mental health provider) 
serving either children or their parents. Families are usually referred 
because a child has emotional, behavioral, or developmental problems or 
because the family is struggling with serious challenges that interfere 
with the ability of the parent or caregiver to nurture and support the 
child's development. These challenges include maternal depression and 
anxiety, substance abuse, domestic violence, child abuse and neglect, 
homelessness, unemployment, illiteracy, cognitive limitations, food 
insecurity, health problems, single and teen parenting, incarceration, 
among many others. About 95 percent of these families have evidence of 
poverty (e.g., TANF, HUSKY, SNAP), and approximately 90 percent are of 
ethnic minority. In addition, Child FIRST in Bridgeport has established 
more formal screening in the Bridgeport Hospital Pediatric Primary Care 
Center and in Head Start.
    Identified children and families are referred to the Child FIRST 
home-based intervention, which consists of weekly home visits by a 
multi-ethnic, multi-lingual team of a licensed, Master's level 
developmental and mental health clinician and a Bachelor's level care 
coordinator/case manager. Our families are often extremely wary and 
mistrusting of the social service system. Our approach is different. We 
believe that parents want the best for their children. Our initial goal 
is to engage our parents and build trust and mutual respect. Without 
building that relationship, no work can be done. A comprehensive, 
assessment of the strengths, priorities, culture, and needs of the 
family leads to a collaborative, family-driven plan of care, which 
includes services and supports for all members of the family. Our care 
coordinator provides hands-on assistance to help families connect with 
services and problem solve with them if there are barriers to access. 
These services are extremely broad, including early care and education, 
early intervention, special education, pediatric providers, nutrition, 
dental providers, adult medical specialists, substance abuse providers, 
adult mental health providers, domestic violence providers, parenting 
groups, home visiting, family resource centers, housing, shelters, 
HUSKY, WIC, SNAP, SSI, food pantries, clothing, job training, literacy 
providers, etc.
    Most of our children and families need parent guidance and parent-
child psychotherapy. This is to build the protective buffer of the 
secure, nurturing parent-child relationship, which is so often missing. 
This is not surprising, as so many of our parents were abused, 
neglected, or suffered from violence or extreme stress in their own 
lives. It is through the expert interventions of our clinical staff 
that we are able to begin to repair these early relationships, leading 
to healthy social-emotional development, strong language and cognitive 
development, and physical well-being. In addition, we work in the early 
care and education classrooms to help the teachers understand the 
child's behavior and develop strategies to promote healthy social-
emotional development not only for the identified child, but frequently 
extending to other children in the classroom as well. The Child FIRST 
home-based intervention usually lasts between 4 and 12 months, but it 
is entirely driven by the unique needs of the child and family.
    Collaboration among community agencies (both State and local) is a 
key component of our Child FIRST system of care model. Our goal is to 
help community providers understand and recognize the broad challenges 
of the children and families that they serve, and for them to seek help 
from Child FIRST if the needs of the families are beyond their unique 
expertise. At the same time, Child FIRST uses the strengths of the many 
community resources as the source of services for the children and 
families. Through collaboration, we can ensure that a seamless array of 
comprehensive, well-integrated services and supports is provided to the 
family. An Early Childhood Community Council provides community 
oversight for the model.

                      CHILD FIRST RANDOMIZED TRIAL

    Child FIRST has conducted a randomized controlled trial to 
determine the effectiveness of our model, funded as part of the 
Substance Abuse and Mental Health Services Administration's Starting 
Early Starting Smart--Prototype. Families who participated had multiple 
challenges, which included receiving public assistance (93 percent), 
unemployment (64 percent), lack of high school diploma or GED (53 
percent), unmarried (67 percent), maternal depression (54 percent), 
family substance abuse history (44 percent), and history of 
homelessness (25 percent).
    Data was analyzed by an independent team of doctoral level, 
university-affiliated psychologists. Results of the comparison of 
outcomes between the Child FIRST Intervention and the Usual Care 
Controls demonstrated the strong positive impact of the Child FIRST 
Intervention at 12 months. In Child FIRST children, there was a very 
significant decrease in aggressive and defiant behaviors (Odds ratio = 
4.8), and improvement in language development (Odds ratio = 4.2). 
Mothers reported significantly less stress and fewer depressive 
symptoms, anxiety, and other mental health problems. There was a very 
significant decrease in referral to the Department of Children and 
Families (DCF) for child protective services, as reported by mothers 
(Odds ratio = 4.1), which was further documented by DCF records at 3 
years (Odds ratio = 2.1). Intervention families were able to access 91 
percent of desired services as opposed to 33 percent in Usual Care.
    The results of this research were accepted for publication in Child 
Development in a special issue: ``Raising Healthy Children: Translating 
Child Development Research into Practice.''

                        CHILD FIRST REPLICATION

    As a result of the strength and consistency of these outcomes, the 
Robert Wood Johnson Foundation provided $3.195 million toward funding a 
public-private partnership with Connecticut State leadership (including 
the Early Childhood Education Cabinet and the Department of Children 
and Families) and 12 other Connecticut philanthropies to replicate the 
Child FIRST model. An intensive training through a Learning 
Collaborative and on-site supervision is ensuring fidelity to the 
model. Five Connecticut cities, including Hartford, New Haven, Norwalk, 
Waterbury, and New London County, now have Child FIRST models, with the 
intention of further replication in each DCF area office throughout 
Connecticut.

                         COST-BENEFIT ANALYSIS

    A cost-benefit analysis is currently being conducted, but there 
appears to be clear and immediate cost savings in special education, 
protective services and foster care, and parental productivity. Future 
savings in mental health services and juvenile justice are likely to be 
enormous. The Child FIRST intervention costs an average of about $5,000 
for a family of four. When compared to conservative estimates of 
$96,000 per year for a level two group home for a child with serious 
emotional disturbance, over $450,000 per child per year for the State 
juvenile training school, and over $700,000 per child per year for 
psychiatric hospitalization, the tremendous return on investment is 
very clear.

                          POLICY IMPLICATIONS

    Policy implications are very extensive. A few of those most 
pressing include:

    (1) Medicaid and EPSDT (Early Periodic Screening and Diagnosis and 
Treatment): Child FIRST is the only early childhood home-based 
intervention in CT to receive Medicaid reimbursement for diagnosed 
children. However, we cannot and should not wait until a child has a 
diagnosable disorder before offering treatment. The opportunity to 
identify and prevent later disability is enormous. One has only to look 
at the known consequences of maternal depression or violence exposure--
including serious emotional disturbance, academic failure, and abuse 
and neglect--to know that it is essential to treat before the symptoms 
are severe. EPSDT is part of Medicaid law specifically enacted to 
provide children with medically necessary treatment in order to 
identify, prevent, and intervene before serious problems develop. Full 
utilization of EPSDT, consistent with the intent of the law, could 
provide significant Federal funding for Child FIRST implementation. In 
addition, EPSDT could fund screening for emotional and behavioral 
problems, mental health consultation services in early care and 
education, and services for maternal depression within the home.
    (2) CAPTA (The Child Abuse Prevention Treatment Act): CAPTA 
requires that infants and toddlers who are victims of substantiated 
child maltreatment be referred by child protective services (DCF) to 
early intervention services funded under Part C of the Individuals with 
Disabilities Education Act (IDEA). The children in DCF are our highest 
risk young children. Surprisingly, while the numbers of substantiated 
children have not increased in CT during the recession, the severity of 
the needs of the children and families appear to have increased. CAPTA 
gives us an opportunity to ensure that this very vulnerable, already 
identified population receives the developmental assessments and 
intervention that are needed. If these children have emotional, 
behavioral, or relationship challenges, they can then be referred to 
Child FIRST with its unique expertise. It is imperative that States 
fully enact this law so that our highest risk children can be served.
    (3) Early Childhood System of Care: While there are many excellent 
early childhood services in CT, they are fragmented and categorical. 
Many have no evidence-base. We need to build a comprehensive system, 
developed from interlocking, well integrated services and programs 
within and across State agencies and at the local and regional level. 
This would create an infrastructure that could provide direct, 
individualized, and seamless assistance to all families.

    Child FIRST is a new and innovative, home-based model that 
addresses the most vulnerable children and families at the earliest 
possible time. It combines comprehensive, integrated, family-driven, 
community-based services with parent-child intervention to facilitate 
the nurturing relationship. The strength of the neuro-
scientific literature and the Child FIRST randomized trial establishes 
Child FIRST as a very promising model that can address ethnic, racial, 
and socioeconomic disparities with the goal of closing the achievement 
gap. We have the knowledge. We must now develop the will to restructure 
systems and target resources so that our vulnerable children and 
families can succeed.
    Thank you very much!

    Senator Dodd. Thank you very much, Doctor.
    [Applause.]
    Doctor, thank you.
    Dr. Keck.

 STATEMENT OF DOUGLAS B. KECK, D.M.D., M.S.H.Ed., CONNECTICUT 
STATE LEADER, AAPD HEAD START DENTAL HOME INITIATIVE, MADISON, 
                               CT

    Mr. Keck. I have a pretty loud voice. So thank you, Senator 
Dodd and the Subcommittee on Children and Families.
    I am pleased to have the opportunity to testify at this 
hearing to describe an exciting project that is helping to 
improve children's oral health in the State of Connecticut. I 
am a practicing pediatric dentist in New Haven and Madison, and 
I teach part-time at the Pediatric Dentistry Residency Program 
at Yale-New Haven Hospital.
    I am testifying today in my role as the Connecticut State 
leader of the American Academy of Pediatric Dentistry Head 
Start Dental Home Initiative. The American Academy of Pediatric 
Dentistry believes that every child deserves a healthy start in 
life and that good oral health is integral to the healthy 
development of all children.
    This may come as a surprise, but dental caries is the most 
common chronic disease of childhood, much greater than asthma, 
and low-income children are three to five times more likely to 
have untreated tooth decay compared to children of more 
affluent families.
    National statistics indicate that 28 percent of all 
preschoolers between the ages of 2 and 5 suffer from tooth 
decay. However, in Head Start programs, decay rates often range 
from 30 to 40 percent in 3-year-olds and 50 to 60 percent for 
4-year-olds. Head Start has reported that access to oral health 
services is the No. 1 health issue affecting Head Start 
programs nationwide.
    In October 2007, the American Academy of Pediatric 
Dentistry signed a 5-year contract with the U.S. Office of Head 
Start that hopes to improve the access to care for the over 1 
million children that are enrolled in Head Start and Early Head 
Start programs annually throughout the United States. Through 
this partnership, we are developing a network of pediatric and 
general dentists to provide dental homes to children in Head 
Start across the Nation. A dental home means that each child's 
oral healthcare is provided in a comprehensive and ongoing way 
by a dentist.
    Here in Connecticut, approximately 9,000 children are 
enrolled in Head Start programs each year. Through the efforts 
of our regional oral health consultants and State leaders, 
which is my role in Connecticut, we are capitalizing on the 
willingness of dentists to improve access to quality dental 
care for underserved children. In Connecticut, I have recruited 
over 40 dentists to partner with Head Start programs across the 
State directly.
    Since most Head Start children are eligible for Medicaid, 
it is important that Medicaid dental programs are adequately 
funded and properly administered. Over the past 2\1/2\ years, 
the number of providers that treat Medicaid recipients in our 
State has increased from 300 providers to approximately 1,100. 
I would be remiss not to mention that the key driver in these 
Medicaid dental program improvements was the 2008 increase in 
payment for Medicaid services to market-based rates as a result 
of settlement of litigation against the State.
    An example of how my State leader role helps move the 
initiative forward is that I work closely with the New Haven 
Board of Education Head Start grantee and its delegate, LULAC. 
I have met with the superintendent of schools of New Haven, the 
grantee, and its delegate in order to finalize a program for 
Yale's pediatric dentistry residency program that will provide 
dental homes to all the New Haven Head Start students that need 
one.
    This project is slated to reach nearly 1,000 students and 
their families, while providing a tremendous learning 
experience for our dentistry residents at Yale-New Haven 
Hospital.
    Once again, I would like to thank Senator Dodd for allowing 
me the opportunity to testify, and I look forward to answering 
any questions about the program.
    [The prepared statement of Mr. Keck follows:]

        Prepared Statement of Douglas B. Keck, D.M.D., M.S.H.Ed.

    I am pleased to have the opportunity to testify at this hearing to 
describe an exciting project that is helping improve children's oral 
health in the State of Connecticut. I am a practicing pediatric dentist 
in New Haven and also teach part-time at the pediatric dentistry 
residency program at Yale/New Haven Hospital. I am testifying today in 
my role as the Connecticut State leader for the American Academy of 
Pediatric Dentistry-Head Start Dental Home Initiative.
    The American Academy of Pediatric Dentistry \1\ believes that every 
child deserves a healthy start in life and that good oral health is 
integral to the healthy, physical, social-emotional and intellectual 
development of all children. Unfortunately, many children in America 
suffer from poor oral health and lack access to quality oral health 
care. In the U.S. Surgeon General's 2000 Report on Oral Health in 
America, it was noted that not only is dental caries the most common 
chronic disease of childhood, but that low-income children are 3-5 
times more likely to have untreated tooth decay compared to children of 
more affluent families. National statistics indicate that 28 percent of 
all preschoolers between the ages of 2 and 5 suffer from tooth decay. 
However, in Head Start programs, decay rates often range from 30 
percent-40 percent for 3-year-olds, and 50 percent-60 percent for 4-
year-olds. These decay rates are common for children of low-income 
families. In fact, Head Start directors, program specialists, staff and 
parents have reported that access to oral health services is the No. 1 
health issue affecting Head Start programs nationwide!
---------------------------------------------------------------------------
    \1\ Founded in 1947, the American Academy of Pediatric Dentistry 
(AAPD) is a not-for-profit membership association representing the 
specialty of pediatric dentistry. The AAPD's 7,700 members are primary 
oral health care providers who offer comprehensive specialty treatment 
for millions of infants, children, adolescents, and individuals with 
special health care needs. The AAPD also represents general dentists 
who treat a significant number of children in their practices. As 
advocates for children's oral health, the AAPD develops and promotes 
evidence-based policies and guidelines, fosters research, contributes 
to scholarly work concerning pediatric oral health, and educates health 
care providers, policymakers, and the public on ways to improve 
children's oral health. For further information, please visit the AAPD 
Web site at www.aapd.org.
---------------------------------------------------------------------------
    In October 2007 the American Academy of Pediatric Dentistry (AAPD) 
signed a 5-year contract with the U.S. Office of Head Start (OHS) to 
confront the oral health challenges that Head Start children and Head 
Start programs have faced for over 30 years. This contract represents a 
partnership with OHS to improve access to care for the over 1 million 
children enrolled in Head Start and Early Head Start programs annually 
throughout the United States.
    This partnership represents years of hard work by both the dental 
community and Head Start centers across the country to improve the oral 
health of children who have struggled for far too long to obtain care 
that many Americans take for granted. Through this partnership, we are 
developing a network of pediatric and general dentists to provide 
dental homes to Head Start children. A dental home means that each 
child's oral health care is provided in a comprehensive, ongoing, 
accessible, coordinated, family-centered way by a dentist. This 
partnership also empowers parents, caregivers and Head Start staff by 
providing the latest evidence-based information on how they can help 
prevent tooth decay and establish a foundation for a lifetime of oral 
health.
    Early Head Start and Head Start are comprehensive child development 
programs which serve children from birth to age 3 (plus pregnant women) 
and 3 to 5, respectively, and their families. In addition to providing 
educational services, Head Start grantees also provide parent education 
and case management services. Services are provided for parents and 
caregivers to enable them to provide safe and nurturing environments 
for their children that support each child's physical, social-emotional 
and intellectual development, and emphasize opportunities for parent 
involvement.
    Head Start recognizes that every child must be healthy and well-
nourished to learn and develop to his or her full potential. Preventive 
health services are central to Head Start's comprehensive array of 
services. Head Start also understands that oral health is vital to 
overall health and well-being. In recognition of the fact that poor 
oral health can interfere with a child's ability to learn and develop, 
the Office of Head Start has made oral health a priority. Over time, 
OHS has provided funding to support a variety of oral health 
initiatives and programs to address barriers to oral health care for 
Head Start children. The current partnership with the AAPD holds great 
promise to overcome the greatest unmet health care need for Head Start 
programs across the country, because this initiative is all about 
linking dentists to Head Start programs. See the attached fact sheet 
for more information about the national scope of the initiative.
    Here in Connecticut, approximately 9,000 children are enrolled in 
Head Start programs each year. Through the efforts of our Regional Oral 
Health Consultants and State Leaders--which is my role in Connecticut--
we are capitalizing on the willingness of dentists to improve access to 
quality dental care for underserved children. In Connecticut, I have 
recruited over 40 dentists to partner with Head Start programs across 
the State, increasing both access and utilization of dental services 
for families who have traditionally struggled to obtain dental 
services.
    Since most Head Start children are eligible for Medicaid, it is 
important that Medicaid dental programs be adequately funded and 
properly administered. Over the past 2\1/2\ years, the number of 
providers that treat Medicaid recipients in our State has increased 
from 300 to approximately 1,100. This is due to the efforts of the 
Connecticut State Dental Association, the Department of Public Health, 
the Department of Social Services, the Connecticut Dental Health 
Partnership (ASO), and--with a little help from me. As State Leader for 
the AAPD-Head Start Dental Home Initiative, I work closely with the 
Connecticut Department of Public Health, WIC and various Boards of 
Education to enhance public awareness of the importance of oral health 
for our State's most vulnerable children. But I would be remiss not to 
mention that the key driver in these Medicaid dental program 
improvements was the 2008 increase to market-based rates as a result of 
settlement of litigation against the State.
    Let me provide one example of how my State Leader role helps move 
the initiative forward. I work closely with the New Haven Board of 
Education Head Start grantee and its delegate LULAC, as a member of 
their Health Advisory Team. I will be meeting next week with the 
Superintendent of Schools of New Haven, the executive directors of the 
grantee and its delegate, as well as the Health Managers of both 
programs, to finalize a new program for Yale's pediatric dentistry 
residency program to provide dental homes to all the New Haven Head 
Start students that need one. This project is slated to reach nearly a 
thousand students and their families. In addition, it will provide a 
tremendous learning experience for our pediatric, as well as general 
dentistry residents, at Yale-New Haven Hospital.
    The AAPD, through this initiative, is also empowering parents and 
Head Start Staff through the development of educational materials. 
These materials, which include videos, will provide them with solid, 
evidence-based information about early childhood caries and how they 
can protect their children from this disease.
    I want to thank Senator Dodd for allowing me the opportunity to 
testify, and look forward to answering any questions about this 
exciting initiative.

          Attachment.--American Academy of Pediatric Dentistry

                   HEAD START DENTAL HOME INITIATIVE

    Creating partnerships between the dental community and Head Start 
to provide dental homes for Head Start children across the United 
States.

    Every child deserves a healthy start on life, but when it comes to 
oral health many children face significant challenges. Young children 
in low-income families tend to have higher rates of tooth decay and 
have greater difficulty accessing ongoing basic dental care. Key points 
that highlight the severity of the problem include:

    <bullet> Tooth decay is the most common chronic childhood disease--
five times more common than asthma--and the #1 unmet health care need 
among Head Start children.
    <bullet> Twenty-eight percent of all preschoolers between the ages 
of 2 and 5 suffer from tooth decay, but decay rates often range from 30 
percent-40 percent of 3-year-olds and 50 percent-60 percent of 4-year-
olds in Head Start programs.
    <bullet> Dental care for children in Head Start generally is 
covered by Medicaid, however dentists' dissatisfaction with Medicaid 
programs often results in low levels of dentist participation and 
limited access to comprehensive dental care for Head Start children.

    Challenges that Head Start programs face in securing access to 
quality dental care include those related to the availability of dental 
services as well as community, family and cultural factors:

    <bullet> Reluctance by many general dentists to provide services 
for preschool-age children;
    <bullet> Dentists' lack of familiarity with HS/EHS program goals, 
objectives and resources;
    <bullet> Transportation, language and cultural barriers; and
    <bullet> Educating parents about oral health and motivating them to 
follow up with treatment their children need.

    AAPD and Head Start are partnering at the national, regional, State 
and local levels to develop a national network of dentists to link Head 
Start children with dental homes. A dental home means that each child's 
oral health care is delivered in a comprehensive, ongoing, accessible, 
coordinated, family-centered way by a dentist.
    A national network of pediatric dentists and general dentists is 
being created to: provide quality dental homes for Head Start (HS) and 
Early Head Start (EHS) children; train teams of dentists and HS 
personnel in optimal oral health care practices; and assist HS programs 
in obtaining comprehensive services to meet the full range of HS 
children's oral health needs. Regional consultants are assisting State 
leadership teams in development of collaborative networks throughout 
each State. Local networks engage local dentists and HS personnel as 
well as other community leaders to identify strategies to overcome 
barriers to accessing dental homes. This partnership also provides 
parents, caregivers and HS staff with the latest evidence-based 
information on how they can help prevent tooth decay and establish a 
foundation for a lifetime of oral health.

    The 5-year plan relies on five key components:

    <bullet> Providing project leadership, administration and 
organizational support;
    <bullet> Providing oral health expertise and technical assistance;
    <bullet> Developing networks of dentists to provide access to 
dental homes;
    <bullet> Training dentists to enhance their capability to meet the 
oral health needs of young children and their understanding of HS/EHS 
programs; and
    <bullet> Enhancing HS/EHS oral health staff training and parent 
education programs.

    For additional information contact: Jan Silverman, AAPD Head Start 
Dental Home Initiative Project Manager at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d677e64617b687f606c634d6c6c7d6923627f6a">[email&#160;protected]</a> or visit 
http://www.aapd.org/headstart/.

                            SUCCESS STORIES

Formalizing Relationships

    North Dakota State Leader Brent Holman on facilitating discussions 
between Head Start Centers and IHS clinics: I was amazed that just by 
scheduling a meeting with IHS Dental staff and HS staff, they very 
quickly start discussing common problems and solutions for the benefit 
of better care for their HS kids. We mostly listened and guided them in 
developing strategies to solve their problems. Although they 
communicated previously, this was an opportunity to talk about issues 
that were only informally discussed after a problem with a particular 
case. It was inspiring to see their commitment to their mission despite 
the many challenges.

Parent Empowerment

    Connecticut State Leader Doug Keck on talking with parents: At the 
Health Advisory Committee, parent representatives of the local Head 
Start were amazed from a consumer standpoint that there are differences 
between dentists and how it is important to seek better oral health 
care than what they are accustomed to.

Recruiting Providers

    North Dakota State Leader Brent Holman: Surveys have been sent out 
to ND dentists to determine their willingness to see HS kids and/or 
serve on HS Advisory Committees. The early returns have been amazing 
with most dentists expressing their eagerness to serve in any capacity. 
We also helped an HS program ``re-recruit'' a dentist that decided to 
quit seeing HS kids, in an area that had few other dentist options.
    Telamon Migrant and Seasonal Head Start, TN: Dr. Pitts Hinson, TN 
State leader has been working closely with the Head Start State 
Collaboration Director and individual Head Start grantees to identify 
dental homes for Head Start children throughout Tennessee who did not 
previously have access. According to J. Davis, State Director, Telamon 
Corporation,

          ``The initiative is working throughout the State--not just 
        here. The whole idea of dentists talking to each other is 
        phenomenal--we're seeing it work. This has changed everything. 
        All five Telamon programs traditionally have had a hard time 
        finding dentists. For the first time in over 20 years, all five 
        centers have partnerships with dentists.''

    New York State Leaders, Dr. Amr Moursi & Dr. Courtney Chinn have 
recently created a NYC Pediatric Oral Health consortium for Head Start. 
This consortium has support from 14 of the 15 pediatric dental 
residency programs in the NYC area. The consortium will link 
participating dental residency programs with Head Start programs.
Collaboration
    Maureen Short, RN, Assistant Head Start Director, UCAN Head Start 
on regional collaboration meetings sponsored by AAPD HS Dental Home 
Initiative State Support Grants: The Southern Oregon Regional Meeting 
was a wonderful opportunity to begin lasting relationships between Head 
Start, pediatric dentists and the dental health organizations. The 
relationship building will be the foundation for many future positive 
experiences, this is a huge success. . . . Maureen Short RN.
    Michael E. Jones, executive director, Oklahoma Association of 
Community Action Agencies on collaborating with the Pediatricians: 
Active and key pediatrician involvement in the HS DHI State Leadership 
Team was accomplished this quarter. The representatives of the medical 
community have the capacity to influence physicians' decisions to 
participate in cross-sector education and training opportunities to be 
made available through the HS DHI support grant.

    Senator Dodd. Very excited about your project.
    [Applause.]
    Abby, thank you for being here.

 STATEMENT OF ABBY I. DOLLIVER, SUPERINTENDENT, NORWICH PUBLIC 
                      SCHOOLS, NORWICH, CT

    Ms. Dolliver. Thank you. I want to thank you, Senator, for 
inviting me and giving me this honor to testify on such a 
critical topic for our State and our country.
    I know that you know that I have watched you throughout 
your career, making decisions that have improved the lives of 
our children and their families, and I thank you for that.
    Senator Dodd. Thank you.
    Ms. Dolliver. As a fairly new superintendent, I don't see 
myself as the voice for all of my colleagues. However, I will 
speak to you about some of our programs and services. I can't 
really do that without also addressing some of our needs. I am 
sure that our story mirrors that of many of our cities and 
towns in Connecticut.
    Norwich is an urban center now. We weren't probably when 
you lived there before, but we are of about 38,000 citizens. 
Our median household income is about $48,000, based on 2009 
data.
    Our district is 3,800 Pre-K to 8 students, with the 
majority of our high school students attending Norwich Free 
Academy, which is our designated high school. We do have our 
own Alternative High School and Clinical Day Treatment 
Programs, which are the types of programs that are helpful and 
important to the success of many of our high school students. 
Not all students benefit from a comprehensive high school 
experience.
    Our schools are very diverse. There are 29 languages spoken 
there. We house five bilingual centers within our schools. 
These centers are critical for the success of our students with 
English as a second language. Many of our students arrive in 
school without speaking any English. There are 465 students 
with English as a second language throughout our district.
    We are fortunate to be part of a program as a partner with 
UCLA in California called Project Excell. This program teaches 
our teachers strategies for our classrooms and dealing with 
students who do not speak English. We have also had several 
years of training for staff in a program called Courageous 
Conversations, which gave us the opportunity to have 
discussions about items related to race, our feelings about the 
differences, and how to manage them in a very diverse 
environment.
    Seventy-nine percent of our students qualify for free or 
reduced meals in school. This federally funded program is 
critical to our district, as we feed our students breakfast, 
lunch, and snacks. Without this, many would be hungry, and we 
know how adversely hunger affects our students' abilities to 
focus in school.
    During last summer, 2009, we provided 11,185 breakfasts and 
21,654 lunches throughout our community, and I expect that this 
year's numbers will be higher. Our students and their families 
need these programs.
    Norwich has 845 students who meet the criteria for special 
education services. While we know that many of the mandates for 
special education have not been ever fully funded, we were able 
to provide specialized programs for students on the autism 
spectrum, and I know that there is much research going on 
currently about autism, and the numbers of students who qualify 
for these programs continues to grow.
    In addition, older students also are required to have 
programs now that transition them to be able to be successful 
and independent after high school. We are able to use some of 
our ARRA funding to support both of these important 
initiatives, as well as others. We do need to provide these 
programs in the future.
    We provide several integrated preschool opportunities. 
These are all possible through Title I, School Readiness, and 
IDEA funding. We also have Family Resource Centers in several 
of our schools. Even with limited space, we are committed to 
finding ways to keep these centers in our schools. They provide 
affordable before and afterschool care and supports for 
families. We all know how important early intervention is to 
future student success.
    Increasing parent involvement is one of our goals. We 
provide opportunities to partner with them to work together for 
student success. One example is the FAST Team, which is 
Families and Schools Together. This grant came through the 
Connecticut Parent Advocacy Center, and they helped us to focus 
on opening doors and bridging communication gaps with our 
parents. Each of our schools finds ways to engage parents who 
are very busy and hard-working.
    Since 2007, we have expanded afterschool opportunities to 
our K to 8 students with a 5-year 21st Century Learning Center 
grant award. We were able to serve over 450 students from 
afterschool until 5 p.m. This had a positive impact on 
students, with enriched academic and cultural opportunities, 
service learning projects, and recreational activities. During 
the summer months, we were able to provide service learning, 
enrichment, and structured recreational activities for 
students, bringing academic success from one year to the next, 
a very necessary bridge.
    After school tutorial programs through grant funding 
enriches students' math and literacy skills. Learn and Serve 
America funds support community partnerships with students. 
Community pride and involvement is critical to student and 
community success.
    Three school-based health clinics offer students and 
families access to essential health and counseling services. 
This program has helped students with obtaining physicals and 
immunizations and ongoing healthcare. We have a wellness 
committee that oversees initiatives for healthy staff and 
students. We take advantage of a fresh fruit and vegetable 
grant so that we set the example for students on healthy eating 
and lifestyles.
    The Positive Behavior Support Program is being implemented 
in our schools to address school climate and culture. We have 
seen a significant decrease in disciplinary referrals as a 
result of this program.
    This is all part of our Scientifically Research Based 
Intervention Programs that provide tiered interventions to 
address both academic and emotional and behavioral needs of our 
students. Several of our schools have developed Character 
Counts initiatives, which provide positive reinforcement for 
good citizenship.
    Those programs that I have mentioned are just a sampling of 
all that we do. I am proud to say that we are making progress. 
Even with a nearly flat-funded budget for the third year in a 
row and with having to close two schools this year coming up 
and laying off 70 staff, we are making progress.
    We have not closed the achievement gap. We are one of the 
districts in need of improvement in Connecticut. Yet with all 
of these program opportunities and our committed staff, we open 
the doors to our students and their families with programs and 
services that address their academic, social, and health needs. 
Providing emotional and academic support is critical to student 
success, and we need this success as the foundation for our 
future.
    [The prepared statement of Ms. Dolliver follows:]

                 Prepared Statement of Abby I. Dolliver

    I want to thank you Senator Dodd, for providing me with the honor 
of testifying today on such a critical topic, Connecticut's Children. I 
am proud to say that I have watched you throughout your career making 
decisions that have improved the lives of our children and their 
families, and I thank you for that.
    As a fairly new Superintendent, I don't see myself as the voice for 
all of my colleagues; however I will speak to you about some of our 
programs and services. I can't really do that without also addressing 
some of our needs. I'm sure that our story mirrors that of many of our 
cities and towns in Connecticut.
    Norwich is an Urban Center with about 38,000 citizens; our median 
household income is $48,000 a year based on 2009 data. Our district has 
3,800 Pre-K to 8 students, with the majority of our high school 
students attending Norwich Free Academy, our designated high school. We 
do have our own Alternative High School and Clinical Day Treatment 
Program which are the types of programs that are helpful and important 
to the success of many high school students. Not everyone benefits from 
a comprehensive high school experience.
    Our schools are very diverse. There are 29 languages spoken there. 
We house five Bilingual Centers. These centers are critical for the 
success of our students with English as a second language. Many of our 
students arrive in school without speaking any English. There are 465 
students with English as a second language throughout our district. We 
are fortunate to be part of a partner program with UCLA in California, 
Project Excell. This program teaches our teachers strategies for their 
classrooms for our students who do not speak English. We have also had 
several years of training for staff in a program called Courageous 
Conversations. This program discussed issues related to race, our 
feelings about these differences and how to manage them in a very 
diverse environment.
    Seventy-nine percent of our students qualify for free or reduced 
meals in school. This federally funded program is critical to our 
district as we feed our students breakfast, lunch and snacks. Without 
this, many students would be hungry and we know how adversely hunger 
affects students' abilities to focus in school. During the summer of 
2009 we provided 11,185 breakfasts and 21,654 lunches. I expect that 
this year's numbers will be higher. Our students and families need 
these programs.
    Norwich has 845 students who meet the criteria for special 
education services. While we know that many of the mandates for Special 
Education have not been fully funded, we are able to provide 
specialized programs for students on the autism spectrum. I know that 
there is much research going on currently about autism and the numbers 
of students who qualify for these programs continues to grow. In 
addition, older students also are required to have programs that 
provide a transition for them to be able to be successful and 
independent after high school. We are able to use ARRA funds to support 
both of these important initiatives as well as others.
    We provide several integrated preschool opportunities. These are 
all possible through Title 1, School Readiness, and IDEA funding. We 
also have Family Resource Centers in several of our schools. Even with 
limited space we are committed to finding ways to keep these centers in 
our schools. They provide affordable before and afterschool care and 
supports for families. We all know how important early intervention is 
to future student success.
    Increasing parent involvement is one of our goals. We provide 
opportunities to partner with them to work together for student 
success. One example is the FAST Team (Families and Schools Together). 
This grant through the Connecticut Parent Advocacy Center helped us to 
focus on opening doors and bridging communication gaps with our 
parents. Each of our schools finds ways to engage our very busy and 
hard-working parents.
    Since 2007 we have expanded afterschool opportunities for our K to 
8 students with a 5-year 21st Century Community Learning Center grant 
award. We are able to serve over 450 students from the end of the 
school day until 5 p.m. This has had a positive impact on students, 
with enriched academic and cultural opportunities, service learning 
projects and recreational activities. During the summer months we are 
able to provide service learning, enrichment, and structured 
recreational activities for students, bringing academic success from 
one year to the next, a very necessary bridge.
    After school tutorial programs through grant funding enriches 
students' math and literacy skills. Learn and Serve America funds 
support community partnerships with students. Community pride and 
involvement is critical to student and community success.
    Three school-based health clinics offer students and families 
access to essential health and counseling services. This program has 
helped students with obtaining physicals and immunizations. We have a 
Wellness Committee that oversees initiatives for healthy staff and 
students. We take advantage of fresh fruit and vegetable grants so that 
we set the example for students on healthy eating and lifestyles.
    The Positive Behavior Support Program is being implemented in our 
schools to address school climate and culture. We have seen significant 
decrease in disciplinary referrals as a result of this program. This is 
all part of our Scientifically Research Based Intervention Programs 
that provide tiered interventions to address both the academic and 
behavioral needs of our students. Several of our schools have developed 
character count initiatives which provide positive reinforcement for 
good citizenship.
    Those programs that I have mentioned are just a sampling of all 
that we do. I am proud to say we are making progress. Even with a 
nearly flat funded budget for the third year in a row and with having 
to close two schools and lay off 70 staff, we are making progress. We 
have not closed the achievement gap yet but with all of these program 
opportunities and our committed staff, we open the doors to our 
students and their families with programs and services that address 
their academic, social and health needs. Providing emotional and 
academic support is critical to student success and we need this 
success as the foundation for our future.

    Senator Dodd. Very good, Abby. Thanks so much.
    [Applause.]
    Tammy.

   STATEMENT OF TAMMY PAPA, DIRECTOR, BRIDGEPORT LIGHTHOUSE, 
                         BRIDGEPORT, CT

    Ms. Papa. Good morning. On behalf of our partner agencies 
and the children and families we serve, I would like to thank 
you for the opportunity to submit testimony today on what is 
working for Connecticut's children.
    A very special thank you to you, Senator Dodd, for all that 
you have done for Bridgeport children. We truly appreciate it.
    The Lighthouse Program serves approximately 2,700 children 
a day in 24 public schools, and we know we are impacting the 
whole child when we hear from a teacher who tells us,

          ``My students were doing poorly in math, struggling 
        with basic math concepts. Since participating in the 
        Lighthouse mathematics program, the girls have come a 
        long way and are now doing so well that they are 
        helping other students.''

    Or when student Amanda Lopez writes, ``The Lighthouse 
Program has helped me in so many ways, but most importantly, it 
helps me stay out of trouble after school.''
    And yet another student, Cecily Morales, writes, 
``Lighthouse has given me opportunities for new things like 
ballroom dancing. For me, this has helped me be more 
confident.''
    Or when a parent from Edison School comments that,

          ``The Lighthouse Program treats each and every child 
        like a member of its own family. I feel comfortable 
        leaving my child there on a daily basis. It is a 
        wonderful program, and I see a big change in my son's 
        behavior.''

    Through tutoring, partnerships with local universities, 
regular contact with daytime teachers, state-of-the-art 
curriculum in reading and math, as well as activities that 
focus on critical thinking skills, the Lighthouse Program is 
making strides to close the achievement gap.
    Our latest independent evaluation, conducted by Dr. Phil 
Zarlengo of MRM, former director of the Lab at Brown 
University, reports that,

          ``2009 findings for Lighthouse participants are 
        significant for reading, writing, and math when 
        compared to the rest of the district. The average CMT 
        mathematics score of Lighthouse students exceeded the 
        district score in grades 3 through 8, and the average 
        reading and writing score exceeded the district score 
        in grades 3, 5, 7, and 8.''

    We address the physical, social, and emotional well-being 
of Bridgeport children by offering them activities in a 
judgment-free zone in which pressure to perform is taken out of 
the equation. Through various partnerships for extracurricular 
activities, the Lighthouse Program is working with some of the 
district's most challenged students, and daytime teachers are 
reporting positive changes in behavior.
    They indicate that, ``72 percent of students had good to 
excellent relationships with peers, and 83 percent had good to 
excellent relationships with teachers.'' Furthermore, ``86 
percent of Lighthouse participants are rarely or never referred 
to the office for disciplinary reasons, and 79 percent rarely 
or never require in-class discipline,'' resulting in fewer 
disruptions and more time on task.
    Through these activities, the Lighthouse Program is also 
addressing the serious obesity rate among our young people. 
Joseph Mahoney, Ph.D., associate professor of psychology at 
Yale University during the time of the research--he has since 
moved--and at the time under the direction of Dr. Zigler, noted 
that ``childhood obesity is a significant problem in this 
Nation and in the city of Bridgeport. When the children in this 
study were only 5 years old, nearly one quarter of them were 
clinically obese. However, over time, children participating in 
afterschool programs showed a less marked increase in their 
body mass index and lower rates of clinical obesity.

          ``In particular, by the second year of the study, 33 
        percent of children who did not participate in 
        afterschool programs were obese, compared to only 21 
        percent of those who did.''

    His study further concluded that

          ``Children in Bridgeport's afterschool program had 
        higher expectations of success and more socially 
        acceptable behavior when compared to children in self 
        care, parent care, or relative care.''

    And that,

          ``For those children exposed to high rates of crime 
        and violence in their neighborhoods, participation in 
        the afterschool program appeared to buffer them from 
        exposure and significantly reduce the likelihood of 
        developing academic and behavior problems in school.''

    In a city like Bridgeport, where 95 percent of public 
school students are considered economically disadvantaged, we 
need to do all we can to assure that children are productive 
during their out-of-school time. We need to appeal for more 
funding that provides children, who tend to suffer greatly 
during tough economic times, with opportunities to participate 
in quality afterschool and summer programs because we now know 
that they work.
    We need to make sure that current sources of funding, like 
the 21st Century Community Learning Centers program, remain 
intact and that the funds for such are not diverted.
    While we have been fortunate over the years to grow the 
city's Lighthouse Program, we still have much to do to ensure 
that every child that wants or needs access has it. As program 
providers, we appreciate opportunities in which we can share 
our successes and humbly ask that we continue to safeguard the 
future of every American child by continuing to support high-
quality afterschool and summer programs like Bridgeport's 
Lighthouse Program that partners with the school district and 
our community-based organizations to help students learn, 
succeed in school, become college- and career-ready, and thus 
productive members of society.
    Thank you.
    [The prepared statement of Ms. Papa follows:]

                    Prepared Statement of Tammy Papa

    Good morning. My name is Tammy Papa and I am the director of the 
city of Bridgeport Lighthouse Before, AfterSchool and Summer Program. 
On behalf of our partner agencies and the children and families we 
serve, I would like to thank you for the opportunity to submit 
testimony today on what is working for Connecticut's Children. A very 
special thank you to you Senator Dodd for all you have done in support 
of our program over the years. Without your leadership along with 
Senator Lieberman, former Congressman Christopher Shays, and 
Congressman Himes, we would not have been in a position to serve over 
2,700 children per day for the past 17 years.
    History: Partnership that began in 1993 between the city of 
Bridgeport, Board of Education, and numerous faith and community-based 
organizations, as well as institutions of higher education at a time 
when our young people were being shot and killed on our streets in 
broad daylight, afterschool, and within yards of our public schools. 
Then Mayor Joseph Ganim along with former Superintendent James Connelly 
called upon some of the larger non-profits and faith-based 
organizations within the city to work together on a solution to curb 
the violence. The city was coming out of bankruptcy and was only able 
to contribute a small amount. Other agencies did what they could as 
well. With approximately $100,000 in seed money, three schools in 
critical neighborhoods and a few community centers extended their 
hours. With the start of the new fiscal year in July 1993, an influx of 
Education Cost Share funding allowed the city through the Board of 
Education to expand programming into 17 summer and afterschool sites. 
The program was scaled back to 11 sites the following year maintaining 
a budget of approximately $850,000 where it remained until receiving 
its first 21st CCLC grant in 1998 and an increase of $400,000 from the 
city. Former Mayor John Fabrizi and current Mayor Bill Finch have both 
maintained the city's investment in afterschool which today totals 
$1,350,000 annually. From 11 afterschool sites, the program has grown 
to 24 sites and the need to open two additional schools in the fall and 
spring of 2010 and 2011 respectively is evident. The program receives 
Federal, State, local, private foundation, and parent fees. It's 2010-
11 budget totals $4,000,000.
    Currently Serving: 2,700 Bridgeport children daily in grades K-8 
during the school year from 3 p.m.-6 p.m. and during the summer for 5 
weeks from 9 a.m.-5 p.m. employing over 300 individuals.
    Percent of Public School Student Population Served: Approximately 
12 percent for the 2009-10 school year.
    In addition to providing a safe place for children who might 
otherwise go home to an unsupervised setting, the Lighthouse Program 
also addresses the following issues:

    Achievement Gap--Through tutoring, partnerships with local 
universities, regular contact with daytime teachers, state-of-the-art 
curriculum in reading and math as well as activities that focus on 
critical thinking skills, the Lighthouse Program is making strides to 
close the achievement gap. Our latest independent evaluation conducted 
by Dr. Phil Zarlengo, former director of the Lab at Brown University 
reports that:

          ``2009 findings for Lighthouse participants are significant 
        for Reading, Writing, and Math when compared to the rest of the 
        district. Students in all but 5th grade are performing at 
        proficiency or above in reading and math. The average CMT 
        Mathematics score of Lighthouse students exceeded the district 
        score in grades 3-8 and the average Reading and Writing score 
        of Lighthouse students exceeded the district score in grades 
        3,5,7, and 8.''

    This evidence is further backed by the research conducted over a 2-
year period by Deborah Lowe Vandell, University of California, Irvine 
and her team titled, ``The Study of Promising Practices,'' which 
Bridgeport's Lighthouse Program was part of. She found that ``those 
elementary school students who regularly attended the high-quality 
afterschool programs demonstrated significant gains.'' We are hopeful 
that subsequent evaluations will show further growth and anticipate the 
completion of the 2010 report shortly. In the meantime, we continue to 
research new, innovative, and cost-effective approaches that engage 
children in activities that promote learning.
    <bullet> Physical, Social and Emotional Well-Being--By offering 
children activities in a judgment free zone in which pressure to 
perform is taken out of the equation, they adapt and rise to the 
occasion. Through partnerships with the Kennedy Center, the Lighthouse 
Program is working with some of the districts most challenged students 
during afterschool hours and daytime teachers are reporting positive 
changes in behavior. Activities that encourage team approaches like 
those offered through First Tee, USTA's Quick Start, and Cal Ripken's 
Healthy Choices, Healthy Students among a host of other activities like 
ballroom dancing, chess, organized basketball clinics, drama, etc. 
indicate Lighthouse children's physical, social, and emotional needs 
are being met. Daytime teachers reported that ``72 percent of students 
had good to excellent relationships with peers and 83 percent had good 
to excellent relationships with teachers.'' Furthermore, ``86 percent 
of Lighthouse participants are rarely or never referred to the office 
for disciplinary reasons and 79 percent rarely or never require in 
class discipline'' resulting in fewer disruptions and more time on 
task. Through these varied activities, the Lighthouse Program is also 
addressing the serious obesity rate among our young people. Joseph 
Mahoney PhD. Associate Professor of Psychology at Yale University 
during the time of his research on the Lighthouse Program, noted that:

          ``Childhood obesity is a significant problem in this Nation 
        and in the city of Bridgeport. The condition is known to 
        predict a range of serious health problems. When the children 
        in this study were only 5-years-old, nearly one-quarter of them 
        were clinically obese. However, over time, children 
        participating in afterschool programs showed a less marked 
        increase in their body mass index and lower rates of clinical 
        obesity. In particular, by the second year of the study, 33 
        percent of children who did not participate in afterschool 
        programs were obese compared to only 21 percent of those who 
        did participate in afterschool programs.''

    By providing Lighthouse children with healthy snacks, rotating them 
from activity to activity, and encouraging a minimum of 20 minutes of 
exercise per day, the program is making strides to curb this most 
serious epidemic. Dr. Mahoney's study further concluded that:

          ``children in Bridgeport's afterschool program had higher 
        expectations of success and more socially acceptable behavior 
        when compared to children in self care, parent care or relative 
        care.''

    This is especially critical because all the research shows that 
student expectations of his or her performance have a direct 
correlation to his or her rates of success.
    <bullet> Community Violence--Research shows that exposure to 
criminal activity over time can hinder one's ability to focus in school 
and most often times creates problem behavior. With the rise of gang 
activity on our streets it is critical that we keep our children in 
supervised settings and away from danger until a parent or guardian can 
be there. We use this time productively to help build relationships 
between local law enforcement and students. Raising awareness about the 
negative impact of joining gangs and what to look for in their 
community is reducing their risk of becoming involved in illicit 
activities or being victimized. In his study of Lighthouse Program 
participants over 4 years, Dr. Mahoney concluded,

          ``for those children exposed to high rates of crime and 
        violence in their neighborhoods, participation in the 
        afterschool program appeared to buffer them from exposure and 
        significantly reduce the likelihood of developing academic and 
        behavior problems at school.''

    Since the Lighthouse Program is not exempt from the current 
recession, it has become even more critical that we constantly measure 
our success and look for new ways to engage not only our K-8 
population, but also our high school youth who suffer greatly from a 
lack of employment opportunities. There can be no time, effort, or 
money wasted on unsuccessful activities as needs grow during tough 
economic times and tend to have a devastating effect on the young and 
elderly alike. Therefore, in addition to our annual independent 
evaluation which collects both quantitative and qualitative 
information, we are conducting additional site visits, asking site 
coordinators to conduct periodic self assessments, keeping in regular 
contact with principals, and asking for community feedback. In this 
manner, we are poised to attract additional funding opportunities that 
will enable us to bring current programs to scale and replicate 
services throughout the district.
    The Impact of AfterSchool on Bridgeport and the Region

    <bullet> Economic Development

        <bullet>  Employs over 300 certified teachers, para-
        professionals, college students, youth, and adults.
        <bullet>  Allows approximately 1,800 families to work full 
        days.
        <bullet>  Higher employee productivity levels.
        <bullet>  Incentive for company relocations.

    <bullet> Higher Test Scores

        <bullet>  Reading, Writing, and Math.

    <bullet> Lower Crime Rates and Less Exposure to Crime

    <bullet> Transition from Early Childhood Initiatives

    <bullet> Lower Obesity Rates

        <bullet>  Reduced health care costs.
        <bullet>  Improved Self Esteem.

    <bullet> Less Discipline Referrals

    <bullet> Higher Attendance Rates

    Again, thank you for the opportunity to speak before you today.

    Senator Dodd. Thank you.
    [Applause.]
    Kellyann.

 STATEMENT OF KELLYANN DAY, EXECUTIVE DIRECTOR, NEW HAVEN HOME 
                    RECOVERY, MANCHESTER, CT

    Ms. Day. Good morning, Senator Dodd, and distinguished 
guests. It is an honor to be here, and thank you for inviting 
me to speak.
    Contrary to the stereotype of men sleeping in doorways or 
pushing overloaded shopping carts, families now comprise 40 
percent of the homeless population in the United States. The 
percentage is closer to 50 percent in the State of Connecticut.
    I have submitted many pages of information in my written 
testimony for your review, but I just want to emphasize one 
thing. Of the 130 children that we sheltered this past year, 35 
percent were between the ages of 6 and 12, and 45 percent were 
under 6.
    Of the 15 programs that New Haven Home Recovery operates, I 
would like to highlight two. The first is the Family School 
Connection, funded by the Connecticut Children's Trust Fund. It 
operates out of the Fair Haven K-8 School, which has the 
highest number of homeless families in the city.
    The FSC is an intensive home visiting program that provides 
parent education and student advocacy. Children who are at risk 
of neglect because of excessive tardiness, truancy, or academic 
and behavioral challenges are referred to the program. Young 
children who are frequently tardy, absent, and disconnected 
from school are likely to be living in circumstances where 
family issues are interfering with their participation and 
opportunity to learn and achieve.
    The outcomes of our program this year, to name a few, a 
significant drop in DCF referrals were made by the school, an 
increase in parental involvement was documented, and a 15 
percent increase in grades for the students who were enrolled 
in the program was shown.
    On a cold morning in March during the CMTs, the FSC staff 
received a phone call from the school requesting assistance. 
When staff arrived, they found a third grade boy was selling 
his Christmas toys to classmates to help his dad pay for rent 
and food.
    A backpack full of food, a Stop and Shop gift card, 
toiletry items, warm clothing were all provided to the child 
that day to bring home. Subsequently, the family was informed 
about the program and enrolled. As of today, dad is employed, 
engaged with the school, and accessing community resources. The 
child is excelling socially and academically.
    This is a highly successful program, and we have many 
families on the wait list.
    The second program is the Homeless Prevention and Rapid Re-
Housing Program, funded by HUD. The program provides financial 
assistance to people lining up for shelter beds or for those 
that are in the shelter.
    For example, Jack and Diane were evicted from their home of 
5 years. Jack is a self-employed contractor. Diane is a stay-
at-home mother of six. Upon eviction, the family moved into a 
local homeless shelter, but one of their children's asthma 
became so severe that they needed to move to a motel.
    After two apartments fell through, the family finally found 
a house to rent. Unfortunately, the timing was off. They had 
reached their limit on their credit card at the motel and were 
being put out on the street. Their only choice was to sleep in 
their car. HPRP prevented this from happening by providing 
funding for the motel for a few days and ultimately relocating 
them to the home.
    Lastly, Juan and Julia, both college graduates, moved to 
New Haven from Puerto Rico in order to seek medical care for 
their son. Their 1-year-old was ill and had recently undergone 
open heart surgery at Yale-New Haven Hospital. In addition, the 
boy was recovering from liver disease and other infections.
    The family was living at the Ronald McDonald House during 
the baby's hospitalization but had no place to live upon 
discharge. A stay at a shelter would have compromised the boy's 
fragile health. They considered going back to Puerto Rico, but 
funding was limited, and they needed to remain close to 
necessary medical care.
    HPRP was able to assist them in finding housing, paying for 
security deposit and rental assistance. The family is stably 
housed, and Juan and Julia are currently looking for work.
    Thank you for allowing me to tell you about these families, 
and thank you for all the work that you have done.
    I know I did submit lots of facts and figures in my written 
testimony.
    Senator Dodd. They were great.
    Ms. Day. And I would be happy to talk about those after.
    [The prepared statement of Ms. Day follows:]

                   Prepared Statement of Kellyann Day

    Good morning Senator Dodd and distinguished guests, it's an honor 
to be here. Thank you for inviting me to speak and thank you for great 
work on family and children's issues.
    Contrary to the stereotype of men sleeping in doorways or pushing 
overloaded shopping carts stuffed with their worldly belongings, 
families now comprise 40 percent of the homeless population in the 
United States. The percentage is closer to 50 percent in the State of 
Connecticut.
    Just 30 years ago, child and family homelessness did not exist as 
it does today. The numbers of homeless families in the United States 
are increasing at a rapid rate. According to the National Alliance to 
End Homelessness' Web site,

          ``Approximately 3.5 million individuals experience 
        homelessness each year--about 600,000 families and 1.5 million 
        children. An additional 3.8 million adults and children are 
        residing in doubled-up, overcrowded, or otherwise precarious 
        housing situations.''

    CT Faces a significant and growing challenge of family 
homelessness, with a steadily increasing number of homeless families 
with children. We saw a 13 percent increase in homeless families from 
2007 vs. 2008 and a 33 percent increase between 2008 and 2009!
    Available shelter and housing for homeless families is decreasing. 
There is a rising demand for shelter and housing at a time when State 
and local government are unable to support the operations of shelters 
and are cutting budgets. The development of affordable and supportive 
housing has slowed significantly. Public housing authority lists are 
long and rarely open for new names.
    In 2007, the nationwide average shelter stay for a homeless family 
was 5 months. With the economy worsening in 2008 and 2009, the length 
of stay has been increasing. At NHHR we have seen a 17-percent increase 
in the number of days a family is living at the shelter.
    In a nationwide survey, 87 percent of homeless families cited a 
lack of affordable housing as the primary cause of their homelessness. 
Although most homeless families are headed by a single parent, families 
in 36 of the 50 States must work at least two full-time jobs in order 
to afford Fair Market Rent for a two-bedroom unit.

    <bullet> Overcoming homelessness is almost impossible without 
steady employment.
    <bullet> Over two-thirds of homeless parents are unemployed.
    <bullet> Fifty-three percent of homeless mothers do not have a high 
school diploma.

    In 17 of 50 States, households must earn over $16/hour to afford 
the Fair Market Rent for a two-bedroom unit. According to the National 
Center on Family Homelessness' Stat Report Card, the minimum wage in CT 
is $8.25. The average wage for renters is $16.53, but the hourly wage 
needed to afford a two-bedroom apartment is $21.11. That means someone 
working full-time at minimum wage earns only 39 percent of what is 
needed to afford the average two-bedroom apartment.
    Homeless children have less of a chance of succeeding in school. 
This year 35 percent of the 130 children sheltered in NHHR shelters 
were between 6 and 12 years old and attending school.

    <bullet> Homeless children are more likely than housed children to 
be held back a grade.
    <bullet> Homeless children have higher rates of school mobility and 
grade retention than low-income housed children.
    <bullet> Frequent school transfers are the most significant barrier 
to the academic success of homeless students.

    Homeless families are more vulnerable to serious health issues. 
While homeless, children experience high rates of acute and chronic 
health problems. The constant barrage of stressful and traumatic 
experiences also has profound effects on their development and ability 
to learn.
    Children experiencing homelessness are:

    <bullet> Four times more likely to show delayed development.
    <bullet> Twice as likely to have learning disabilities as non-
homeless children.
    <bullet> Sick four times more often than other children.
    <bullet> Have four times as many respiratory infections.
    <bullet> Have twice as many ear infections.
    <bullet> Five times more gastrointestinal problems.
    <bullet> Four times more likely to have asthma.
    <bullet> Go hungry at twice the rate of other children.
    <bullet> Have high rates of obesity due to nutritional 
deficiencies.
    <bullet> Have three times the rate of emotional and behavioral 
problems compared to non-homeless children.

    Violence plays a major role in the lives of homeless children.

    <bullet> By age 12, 83 percent had been exposed to at least one 
serious violent event.
    <bullet> Almost 25 percent have witnessed acts of violence within 
their families.
    <bullet> Homeless parents and their children are more likely to 
have experienced violence.
    <bullet> Domestic violence is the second most frequently stated 
cause of homelessness for families.
    <bullet> One out of three homeless teens have witnessed a stabbing, 
shooting, rape, or murder in their communities.

    Among youth aging out of foster care, those who subsequently 
experience homelessness are more likely to be uninsured and have worse 
health care access than those who maintain housing.
    Over 50 percent of all homeless mothers have a lifelong mental 
health problem.
    Homeless adults in family shelters, when compared to the general 
adult population, have three times the rate of tuberculosis and eight 
times more HIV diagnoses.
    Homeless parents and their children are more likely to be separated 
from each other. Homelessness is the most important predictor of the 
separation of mothers from their children.

    <bullet> Thirty-four percent of school-aged homeless children have 
lived apart from their families.
    <bullet> Thirty-seven percent of children involved with child 
welfare services have mothers who have been homeless at least once.
    <bullet> Sixty-two percent of children placed in foster care come 
from formerly homeless families.

    The deck is clearly stacked against homeless and the unstably 
housed. How do we focus on education when we don't have a stable place 
to sleep? Forty-five percent of the homeless children sheltered at NHHR 
shelters were under 6 years old. We have new born babies at the 
shelter, often!
    Of the 15 programs that NHHR operates I'd like to highlight two.
    The first is the Family School Connection (FSC) program, funded by 
the CT Children's Trust Fund. It operates out of the Fair Haven K-8 
School, which has the highest number of homeless families in the city. 
FSC is an intensive home visiting program that provides parent 
education and student advocacy. Children who are ``at risk'' of neglect 
because of excessive tardiness or truancy and/or academic or behavior 
challenges are referred to the program.
    Young children who are frequently tardy, absent, and disconnected 
from school are likely to be living in circumstances where family 
issues are interfering with their participation and opportunity to 
learn and achieve.
    Outcomes:

    :<bullet> Significant drop in DCF referrals by the School 
(comparable to last year).
    <bullet> An increase in parental involvement.
    <bullet> Fifteen percent increase in grades for students enrolled 
in the program.

    On a cold morning in March, during the CMT's the FSC staff received 
a call from the school requesting assistance. When staff arrived, they 
found that a 3d grade boy was selling his Christmas toys to classmates 
to help his Dad pay for rent and food. A back pack full of food, a Stop 
and Shop gift card, toiletry items and warm clothing were provided to 
the child to bring home that day. Subsequently the family was informed 
about the program and enrolled. As of today, Dad is employed, engaged 
with the school and accessing community resources. The child is 
excelling socially and academically. This is a highly successful 
program and we have many families on the wait list.
    The Family School Connection program conducts universal screening 
of all its families. The program is prevention-based, and therefore, 
screens clients to make sure the State Department of Children and 
Families (DCF) is not involved with the family. The program also 
screens children for social and emotional development and refers those 
at risk for help.
    The vision of Family School Connection is that every child will be 
raised within a nurturing environment that will ensure positive growth 
and development.
    The mission of the Family School Connection (FSC) program is to 
work in partnership with parents of children ages 5 to 12 years old who 
are frequently tardy, absent or disconnected from school in order to 
strengthen the parent-child relationship, home-school relationship and 
the parent's role in their child's schooling.

                           GUIDING PRINCIPLES

    <bullet> Young children who are frequently tardy, absent, and 
disconnected from school are likely to be living in circumstances where 
family issues are interfering with the child's participation and 
opportunity to learn and achieve.
    <bullet> Developing a trusting and productive relationship between 
the program staff and the family is the foundation for strengthening a 
vulnerable family.
    <bullet> Consistent and reliable contacts are the most effective 
way of establishing a supportive and helpful relationship between the 
program staff and the family.

    The goals of the Family School Connection program are to:

    <bullet> Enhance nurturing parenting practices.
    <bullet> Reduce stress related to parenting.
    <bullet> Increase parental involvement in the child's education.

    The program works to achieve these goals by meeting the following 
objectives:

    <bullet> Increase primary caregiver's parenting skills, attitudes, 
and behavior.
    <bullet> Increase primary caregiver's ability to use community 
resources.
    <bullet> Increase communication between primary caregivers and 
school personnel.
    <bullet> Increase primary caregiver's involvement in the child's 
education and presence in the school.

    A growing body of intervention evaluations demonstrates that family 
involvement can be strengthened with positive results for children and 
their school success. To achieve these results, it is necessary to 
match the child's developmental needs, the parent's attitudes and 
practices, and the school's expectations and support of family 
involvement. Three family involvement processes for creating this match 
emerge from the evidence base:

    <bullet> Parenting consists of the attitudes, values, and practices 
of parents in raising young children.
    <bullet> Home-School Relationships are the formal and informal 
connections between the family and educational setting.
    <bullet> Responsibility for Learning Outcomes is the aspect of 
parenting that places emphasis on activities in the home and community 
that promote learning skills in the young child.

    The Family School Connection Program encompasses these processes in 
the design and structure of the program through three components aimed 
at reducing the risk of child abuse and neglect and increasing positive 
results for children and their school success.

                            HOME VISITATION

    Home visiting based on the concept of ``family-centered'' practice 
is the foundation of the Family School Connection program. This 
practice is designed to engage families as partners and is essential to 
the success of the program. Research has found that parents enrolled in 
the home visiting component experienced less stress, developed 
healthier interactions with their children, and became more involved in 
their children's academic lives during the time they participated. The 
program results also suggest that this home visiting is a promising way 
to decrease child abuse and neglect in families with school-aged 
children.
    Program participants are offered weekly home visits for as long as 
the family feels the visits are beneficial or until the child ages out 
of the program. At any time the frequency of the visits can be changed 
based on the family's needs and preferences. The first objective of the 
home visitor is to establish a relationship with the family. Often this 
is accomplished by addressing immediate and concrete needs identified 
by the family such as employment, child care, transportation, basic 
necessities, and other issues that might be making it difficult for the 
parent to attend to the child's need to be in school.
    The second objective is to establish a plan for assisting the 
family. The home visitor works with the family to create and implement 
a Family Action Plan that draws on the family's strengths, community 
resources, and the skills of the home visitor to:

    <bullet> strengthen parent-child relationships;
    <bullet> create linkages for the family to community resources;
    <bullet> support the parent in meeting their family's basic needs;
    <bullet> support the parent in attaining their own aspirations and 
needs; and
    <bullet> support the overall social-emotional needs of the parent 
and child.

    The Clinical Supervisor works with the home visitor to assess the 
family's needs and support the home visitor and parent in the creation 
and implementation of the family action plan. The Clinical Supervisor 
can also provide clinical intervention for the family if the need 
arises.

                            HOME-SCHOOL TEAM

    The program supports families by helping both the parent and child 
make a positive connection with the child's school. Program staff help 
the family connect with a host of school and community services. 
Program staff also work with school personnel to help the school better 
understand and support the needs of the family. Parent school 
involvement is an essential piece of the program and is encouraged by 
program staff at every opportunity.

                            FAMILY LEARNING

    Traditionally, school officials have found it challenging to get 
parents involved, especially in areas that have a large non-English 
speaking, immigrant population. This has been due, in large part, to 
language and cultural barriers experienced by non-English speaking 
parents. In order to accommodate this population, parent engagement 
strategies are modeled after those used by Brein McMahon High School in 
Norwalk, CT, where there is also a large immigrant population. 
Communication is also crucial to getting parents involved. Parents may 
not get involved because they lack direct and helpful information. 
Information needs to be provided consistently and in different formats 
to ensure the information is delivered in a clear and supportive style. 
Resources should be provided to parents who want to learn more about 
their children's education and activities. The FSC staff aid school 
staff trying to increase involvement by implementing these strategies.
    Program staff work with families help them understand and take 
responsibility for their children's learning outcomes. This is the 
aspect of parenting that places emphasis on activities in the home and 
community that promote learning skills for children. Responsibility for 
learning outcomes in the elementary school years falls into four main 
areas: supporting literacy, helping with homework, managing children's 
education, and maintaining high expectations.
    Program staff work in partnership with the school, community 
organizations, and arts and cultural institutions to engage families in 
family learning opportunities. Family learning opportunities can range 
in scope and service but are all intended to extend to help the parent 
understand and under-take their role as the child's first and most 
important teacher. The home visitor works with the family to enroll 
them in a family literacy program, before and afterschool programs, 
tutoring services or parent workshops on topics that support and extend 
a child's learning to the home and community.
    Highlights this year:

    <bullet> Between October 2009 to May 2010, 316 books were read by 
FSC enrolled students.
    <bullet> The FSC program was able to purchase school uniforms for 
children within the FSC program. FSC has become an active investor of 
Fair Haven School's ``uniform is unity'' policy.
    <bullet> FSC families participated in New Haven Home Recovery's 
holiday program, Adopt-a-Family, were 32 FSC families were adopted and 
given Christmas gifts this holiday season.
    <bullet> The FSC program co-sponsors the RIF program with The 
Fairhaven School to promote reading as well as connect families with 
the school. FSC staff and families participate in this school-wide 
presentation.
    <bullet> The FSC program participated in the Fair Haven School 
Advisory Program (Grades 7-8). The advisory program is an arrangement 
whereby one adult and a small group of students have an opportunity to 
interact on a scheduled basis in order to provide a caring environment 
for guidance and support, everyday administrative details, recognition 
and activities to promote citizenship. The purposes of advisory are to 
ensure that each student is known well at school by at least one adult 
who is that student's advocate (the advisor), to guarantee that every 
student belongs to a peer group, to help every student find ways to be 
successful, and promote coordination between home and school.
    <bullet> The FSC program had six target children graduate from the 
Fairhaven K-8 and all are registered to attend high school in the fall. 
In addition, as a result of FSC involvement, parents reported school 
successes with their children.
    <bullet> All FSC families participated in the Homework Contract 
campaign. This assists families with becoming involved in their 
children's academics and build on parent-child-school relationships.
    <bullet> During the fiscal year ending, June 30, 2009, FSC families 
participated in a series of family field trips with transportation and 
admission sponsored by NHHR. The field trips include: Duckpin bowling, 
Movie night Lake Compounce, Roller Magic Rink, Beauty and the Beast at 
the Chevrolet Theatre, Lighthouse Park, Norwalk Aquarium and Beardsley 
Zoo.

    FSC annual data:

    <bullet> 107 Families have been referred.
    <bullet> 53 Families were enrolled.
    <bullet> 85 Children participated.
    <bullet> 211 People total.

    The Second Program is the The Homeless Prevention and Rapid Re-
housing program, funded through the American Recovery and Reinvestment 
Act provides funding and services to families and individuals. NHHR 
serves families who are at imminent risk of homelessness, or who are 
literally homeless. Examples of assistance that may be provided 
include:
Financial Assistance
    <bullet> Rental assistance, including back rent.
    <bullet> Security and utility deposits.
    <bullet> Assistance with utility payments, including utility 
arrearages.
    <bullet> Moving cost assistance (not furnishings).
General Assistance
    <bullet> Referrals to other agencies/shelters when appropriate.
    <bullet> Legal services to assist appropriate person's to stay in 
their housing (not assistance with mortgages).
Populations To Be Served
    Programs will target people who would be homeless ``but for this 
assistance.''

    <bullet> Rapid Re-Housing: Includes people who are literally 
homeless (ex: living in a shelter, a motel, a car, etc.) who require 
more permanent housing.
    <bullet> Prevention with Re-location: Includes people who are at 
imminent risk of becoming homeless (ex: notice to quit, in the process 
of an eviction, institutional discharge, housing has been condemned, 
etc.), who are unable to repair their current housing situation and 
will need to relocate.
    <bullet> Prevention In Place: This includes people who are at risk 
of becoming homeless (ex: behind on rent, temporary loss of income, 
etc.), but who intend to stay in their current housing situation.

    The following is the program breakdown of those served through 
HPRP:


                                  HPRP
------------------------------------------------------------------------
                                                                Total in
                                                   Households  Household
------------------------------------------------------------------------
Admitted.........................................          15         56
Discharged.......................................          40         41
In progress......................................         183        569
                                                  ----------------------
  Total..........................................         238        766
Denied...........................................         138        438
------------------------------------------------------------------------

    For example, Jack and Diane were evicted from their home of 5 
years. Jack is a self employed contractor. Diane is a stay at home 
mother of six children. Upon eviction, the family moved into a local 
homeless shelter, but one of their children's asthma became so severe 
they were forced to move to a motel. After two apartments fell through, 
the family finally found a house to rent. Unfortunately the timing was 
off and they had reached their limit on the credit card at the motel 
and were being put out on the street. Their only choice was to sleep in 
their car. HPRP prevented this from happening by providing funding for 
the motel and ultimately relocating them into a home.
    Mike and Gina were being evicted on the day they came to NHHR for 
help. Gina is pregnant and was recently laid off from her job. The 
couple has three young boys and Gina's elderly, disabled mother living 
with them. Dad was working and Gina had found an apartment to rent but 
they did not have the security deposit. The CT Department of Social 
Services has closed the security deposit guarantee program. NHHR's HPRP 
program was able to pay the security deposit and part of the first 
month's rent into order to avoid this family moving into a shelter.
    Lastly, Juan and Julia, both college graduates, moved to NH from 
Puerto Rico in order to seek medication care for their son. Their 1-
year-old was ill and had recently undergone open heart surgery at Yale 
New Haven Hospital. In addition the boy was recovering from liver 
disease and other infections. The family was living in the Ronald 
McDonald House during the baby's hospitalization, but had no place to 
live upon discharged. A stay at a shelter, would have comprised the 
boy's fragile health. They considered going back to Puerto Rico, but 
funding was limited and they needed to remain close to necessary 
medical care. HPRP was able to assist them in finding housing, paying 
for security deposit and rental assistance. The family is stably housed 
and Juan and Julia are currently looking for work.
    These two program are examples of excellent programs that need to 
and should continue.
    Please feel free to contact me with any questions or concerns 
regarding this testimony.

    Senator Dodd. No, they were great. I would just say I wish 
others would look at the testimony, but just the statistics on 
housing, on healthcare, on education, I am just alarmed. I went 
the other night to--Nancy Pelosi's, Speaker Pelosi's daughter 
Alexandra made a movie which HBO supported, and we went to it 
at the Press Club. I introduced it the other night.
    And it is about children, homeless children living in 
motels outside of the gates of Disneyland in California and 
just what their lives are like and what they go through. But 
the statistics, the numbers are just breathtaking and growing.
    Ms. Day. From 2007 to 2008 here in Connecticut, family 
homelessness increased by 13 percent.
    Senator Dodd. Yes.
    Ms. Day. Between 2008 and 2009, it was 33 percent.
    Senator Dodd. Yes. There is about a 20 percent increase in 
kids in school who are homeless, and one quarter--only one 
quarter of homeless children graduate from high school 
nationally.
    Mr. Edwards.

STATEMENT OF DOUG EDWARDS, FOUNDER AND PROGRAMS DIRECTOR, REAL 
                  DADS FOREVER, MANCHESTER, CT

    Mr. Edwards. Thank you, Senator Dodd. It is a pleasure to 
spend some time with you and with the rest of the members of 
the panel.
    Approximately 40 to 60 percent of children in Connecticut 
go to bed without a dad at home at night. Father absence is 
connected to high out-of-wedlock birth rates, the inability of 
some men to form an emotional connection to their children, and 
high levels of separation and divorce among parents, which has 
been exacerbated by high unemployment and the recession.
    Research shows us that children who are securely attached 
to their fathers have better outcomes socially, emotionally, 
and academically. Fathers, the proverbial ``bread winners,'' 
get their self-worth largely from performance, and in the 
absence of work, psychosocial dynamics wreak havoc with their 
relationships, even with their children.
    The recession has triggered an increased emphasis on job 
preparation, education, training, job retention, and the 
development of relationships with employment resources. In 
addition, programs have found ways to support fathers trying to 
navigate their relationships with their children in the present 
difficult environment.
    Connecticut formed the Fatherhood Initiative as a result of 
legislation in order to ``promote the positive involvement and 
interaction of fathers with their children.'' There are 
presently six sites in the State that have passed a rigorous 
certification process in 2006 and are currently in the process 
of recertification. Five more sites have applied for new 
certification. Connecticut is the only State in the country 
that has a certification process for fatherhood programs.
    Representative John S. Martinez, who passed away in 2002, 
was the deputy majority leader serving New Haven's 95th 
Assembly District. He was especially instrumental in sponsoring 
the Fatherhood Initiative of Connecticut legislation, which was 
passed by the legislature in 1999. In his honor, on July 9, 
2003, Public Act 03-258 was signed into law and is now--the 
Fatherhood Initiative is now called ``The John S. Martinez 
Fatherhood Initiative of Connecticut.''
    The six fatherhood sites provide comprehensive fatherhood 
program services to low-income, noncustodial fathers, including 
preparation for the legal, financial, and emotional 
responsibilities; the establishment of paternity at childbirth; 
fostering their emotional connection to and financial support 
of their children; workforce skills development; and father 
support services.
    There are 30 to 40 other fatherhood programs in Connecticut 
in Head Start schools, prisons, churches, and communities that 
provide one or more of the services mentioned.
    In addition to providing some of these services, my 
program, Real Dads Forever, supported by the Connecticut 
Department of Public Health, developed a curriculum called 
Prenatal Early Attachment for dads supporting mom and the baby 
during the pregnancy and after birth. We are about to begin our 
second cohort, a collaboration with Fair Haven Community Health 
Center, right here in New Haven, and Centering Healthcare 
Institute's Centering Pregnancy in Cheshire, a group prenatal 
national model, which is being evaluated by UCONN.
    We have experienced very promising short-term results--
increased caring and emotional attachment to mom; more 
consistent, timely prenatal visits by both mom and dad; greater 
understanding of prenatal development; a commitment to 
breastfeeding by mom with dad's support; an emotional 
attachment by dad to his unborn child; and a dramatic increase 
in communication between dad and mom, mostly initiated by dad.
    Research shows us that if these elements are in place early 
on, moms are healthier, babies are more likely to be full-term. 
There is a better chance co-parenting will be successful for 
the long-term. Our evaluation team is designing protocol to 
follow up these families over time to substantiate the 
research.
    There is a wealth of research that underscores the value of 
early prenatal father involvement, but a dearth of 
comprehensive programming that specifically targets fathers 
during the prenatal period. Fathers are especially vulnerable, 
open to learning, and welcome the group experience along with 
mom.
    My work with fathers, over 5,000 of them since 1996, in 
small groups over several sessions has taught me that adults 
sometimes still have a yearning for that father-child 
relationship embedded in their subconscious since childhood. 
This--what I call ``yearning, churning, and burning''--impacts 
their social/emotional development, education, and relationship 
navigation for decades.
    This observation of residual emotional disease led me to 
want to begin to find ways to address father absence issues 
from a standpoint of prevention rather than intervention, 
making it essential that we start as early as possible.
    DPH has succeeded in forming a collaboration of agencies, 
including the Public Health Foundation of Connecticut, the 
Hartford Health Department, in the 5-year HHS Federal grant to 
Connecticut DPH to expand access to healthcare in Hartford for 
women nearing childbirth to ensure newborns get a healthy 
start. Real Dads Forever, with its Prenatal Early Attachment 
Program, is one of the community partners.
    Upon further evaluation, this program will be replicated 
after proper training and certification of facilitators. As 
part of our evaluation, we will also focus on the return on 
investment of this program. At its heart, it is prevention. And 
we know, especially in this challenging economic environment, 
prevention is a more fiscally sound investment than 
intervention.
    I have also been involved as facilitator and trainer with 
the Parent Leadership Training Institute, Parents Supporting 
Educational Excellence, both as part of the Commission on 
Children. They are two very successful programs, preparing 
parents to advocate for and lead their children and to partner 
with schools for school improvement.
    Thank you for the opportunity to share my work, concerns, 
hopes, and dreams for the present and future children of 
Connecticut.
    And thank you, Senator Dodd, for your many years of service 
to our State. In my opinion, there is no finer way to end your 
Senate career than having our children close to your heart.
    Senator Dodd. Thank you.
    [Applause.]
    Terrific job, Mr. Edwards. Thanks very much.
    Doctor.

 STATEMENT OF LISA HONIGFELD, Ph.D., VICE PRESIDENT FOR HEALTH 
    INITIATIVES, CHILD HEALTH AND DEVELOPMENT INSTITUTE OF 
               CONNECTICUT, INC., FARMINGTON, CT

    Ms. Honigfeld. Senator Dodd, thank you for the honor to 
testify before you this morning.
    As you noted, I am the vice president for Health 
Initiatives at the Child Health and Development Institute, or 
CHDI. CHDI is a not-for-profit organization that is dedicated 
to improving the health and mental health systems for children 
here in Connecticut.
    As part of my responsibilities at CHDI, I have the 
privilege of participating in the implementation and the 
dissemination of a successful Connecticut-grown system for 
identifying young children at risk for developmental delay and 
connecting them to intervention services, many of which you 
have heard about this morning, which will allow them to receive 
services at the youngest age possible, which is when we know 
that interventions are most effective.
    Help Me Grow, originally developed as a pilot program in 
Hartford by Dr. Paul Dworkin, physician-in-chief of the 
Connecticut Children's Medical Center, brings together funding 
and resources from four State agencies that address children's 
developmental needs. These include the Department of Public 
Health, the Department of Developmental Services, the 
Children's Trust Fund at the Department of Social Services, and 
the Department of Education.
    Through a single point of entry, families are linked to a 
variety of health and community services. Highly trained care 
coordination staff at United Way's 2-on-1 Child Development 
Infoline field calls, perform intake, and connect children and 
families to a variety of programs, thereby facilitating access 
to valuable community-based services that promote healthy 
development.
    Several of these services are funded through Federal 
dollars, including Part B preschool special education services, 
Part C early intervention services, and services for children 
and youth with special healthcare needs that are funded through 
the Maternal and Child Health Bureau's Title V block grant 
dollars.
    Child Development Infoline also integrates hundreds of 
community programs, some of which we have heard about this 
morning, that are part of the Help Me Grow inventory of 
services. By centralizing access to all of these programs under 
a single point of entry, at-risk children who are ineligible 
for the federally funded, State-mandated programs can receive, 
through Help Me Grow, linkage to geographically and culturally 
appropriate programs and services.
    Help Me Grow's statewide triage program is supported by 
regional child development liaisons who locate services and 
maintain regional resource inventories and facilitate access 
for children and families. In addition, Child Development 
Infoline educates pediatric and family medicine providers about 
early identification of children at risk for developmental 
delay and their connection to interventions through Help Me 
Grow and Child Development Infoline.
    Help Me Grow Child Development Infoline is an exemplary 
model of blended funding supporting a multi-sector system that 
cuts across State agencies and includes community-based 
programs to ensure access to services for all children for whom 
there are concerns. More than 8,000 families have used this 
system over the past 4 years, and 80 percent of them have been 
successfully connected to services.
    When we consider that only 1 in 5 children nationally who 
are identified with the behavioral health concerns receive 
services, the success of Help Me Grow Child Development 
Infoline is evident. Help Me Grow and Child Development 
Infoline's success has led to generous support, initially from 
the Commonwealth Fund and, most recently, the Kellogg 
Foundation, to Connecticut Children's Medical Center for 
national replication of this model system.
    Two sites--Polk County, IA, and Orange County, CA--have 
Help Me Grow in place. Five others--Colorado; western Oregon; 
Greenville County, SC; and the greater metro Louisville, KY 
area--are developing systems with technical assistance from the 
Connecticut Help Me Grow team. The Help Me Grow replication 
team will select 10 additional sites for replication over the 
next 3 years.
    All of these sites, their States, as well as the remaining 
33 States, would benefit tremendously from Federal support for 
Help Me Grow. More specifically, since Help Me Grow Child 
Development Infoline's success depends on the blending of 
Federal, State, and local resources to effectively and 
efficiently address the needs of young children, we look to 
Federal support of States to develop and implement Help Me Grow 
systems throughout the country.
    The Connecticut Help Me Grow replication center stands 
ready to partner with your committee and Federal agencies in 
building the capacity in all of our States to ensure that 
children are connected to the services that can ensure their 
healthy development and can begin school healthy and ready to 
learn. As your committee considers how to support programs that 
will ensure children's success, I urge you also to consider 
legislation that will enable States to develop systems like 
Help Me Grow for linking children to available community 
opportunities.
    Thank you, and if you believe that the Help Me Grow 
national replication team from Connecticut can provide you with 
additional information or assistance, please don't hesitate to 
call on us.
    Senator Dodd. That is great. What a great story.
    [Applause.]
    What tremendous stories here that are going on in our own 
State. And with all the identifying of the problems, and yet to 
hear these wonderful efforts that have been made throughout 
Connecticut certainly is a source of pride as well. So I 
commend all of you for your work, and I thank you immensely for 
it.
    I should mention, by the way, that I have some wonderful 
staff who do tremendous work here, and I want to mention Averi 
Pakulis. Averi is here as well. Averi, thank you for your work.
    And Tamar Haro is the chief of staff of the committee. And 
Tamar, thank you immensely for your work.
    And Ben Nathanson is here. Ben, are you here? Yes, you are. 
Ben is a new member of the staff and does a great job.
    Margot Crandall-Hollick as well is at the table over there, 
and Megan Keenan, is Megan here? Back in the back of the room 
as well. I know Brian is here, and who am I missing--Meg 
Benner.
    So I thank all of them for being with us here. There are 
others from the staff as well, but these are principally the 
people who work on the staff of the Labor Committee.
    Well, today is the 25th anniversary, by the way, of the 
Americans with Disabilities Act, ADA. And so, there are some 
questions we should have, I guess, about the difference the ADA 
has made with children with disabilities. And maybe just to 
begin right where we left off, Lisa, with you, how has the ADA 
helped in all of this?
    Ms. Honigfeld. Senator Dodd, the Americans with 
Disabilities Act and, more specifically, the act that allows 
very young children to be connected to intervention services 
has an enormous potential to provide intervention at a time 
when, as Dr. Lowell told us, when the developing brain is most 
amenable to developing resiliency and other skills that will be 
important.
    And so, these services--the Americans with Disabilities 
Act, as well as IDEA--for connecting the very youngest children 
really call on us to ensure that children with or at risk 
actually for developmental delay are identified as soon as 
possible and connected to effective programs.
    Senator Dodd. Well, Doctor, let me ask you as well on that 
because one of the issues that strikes me is how do we identify 
early on? Instead of waiting for the problem to emerge, 
obviously, we can all--I mean, you don't need to have a Ph.D. 
to spot that. But what does require some sensitivity is 
identifying those problems as early as possible.
    Dr. Lowell. Yes. I actually think that that is probably one 
of the most critical things we can do because the brain is 
really very malleable then and that we know that that is the 
time when the architecture of the brain is developed. And that 
what happens in those early experiences are going to determine 
what that architecture looks like, and it is going to be there 
forever.
    I mean, we can hope to make changes, and it is not that we 
can't in the future. But really, it forms the foundation. So 
what do we do? I think that there are several things. One is 
that we have to have strong collaborations in communities. We 
have to have strong connections because, for instance, in 
Bridgeport, where this model developed, many of the children--
actually, in the beginning, all of the children were referred 
from other community providers.
    And so, by educating them to understand the early signs of 
problems, both within the child developmental problems, but 
especially our early care and education sites were seeing 
social, emotional, and behavioral problems. And so, one, we 
have to be able to identify those. But I would say at least, if 
not more important, is to understand what the environments 
these children are growing up in and, as Dr. Zigler said, the 
stresses in the environments.
    Because we have a lot of knowledge now about toxic stress. 
We know about maternal depression and homelessness and 
substance abuse, domestic violence, and other risks that are 
going to create environments where the child's brain is 
actually going to be damaged by the stress they experience. So 
by finding those families who are experiencing that stress 
early on, we can refer them to programs which can both address 
the stress and address the relationships. It is a two-pronged 
kind of comprehensive approach.
    The other thing we can do is have screening, much more 
formal screening that we have actually established in our 
pediatric primary care center. And I know actually the Child 
Health and Development Institute has done a lot of work in 
Connecticut around that as well, but also in our early care and 
education sites. And again, the screening has to be more than 
just for development. We have to look at emotional issues and 
problems, and we have to look at what are the challenges that 
our families are facing because that is where our 
identification can be so powerful.
    Senator Dodd. I wrote, along with Lamar Alexander, the 
infant screening legislation, which was designed primarily to 
deal with some of the--I think were eight originally. There are 
a lot more now, around 32 or 34. But these are more 
developmental issues that if you can pick them up early enough 
and they become recessive, that actually you can avoid some of 
the neurological issues----
    Dr. Lowell. Right, right.
    Senator Dodd [continuing]. That would develop into a 
lifelong threat. In fact, there was only one facility in all of 
New England, in Massachusetts, where you could do the 
screenings. Now we do it here, and the resources are provided 
elsewhere.
    But you are talking about something else, and I am 
wondering whether or not we have the capacity. I know it is 
ideal to do it. Do we have the capacity to identify these kind 
of developmental issues beyond the ones that we normally 
associate with neurological issues?
    Dr. Lowell. Yes, I think that we do have the capacity. I 
think it takes education of providers to understand why it is 
important and how to identify those families at risk. And it 
takes will. It takes believing that if we can get there early 
and work very intensely with families that we really can make a 
dramatic difference and prevent not only problems for those 
parents, but really prevent problems, long-term problems for 
those children.
    And I think that when we look at it from a cost-benefit 
analysis, that we will save money even within the first year of 
doing that kind of intervention because special education 
itself, DCF referrals, foster care, all of this. When we get 
services for families, we avoid homelessness. We avoid later on 
incarceration and very serious problems with hospitalization 
for psychiatric disabilities.
    So we have to believe that, get there early, and prevent 
many of these disabilities.
    Ms. Honigfeld. Can I just add one point?
    Senator Dodd. Certainly.
    Ms. Honigfeld. Darcy and I have worked together on this for 
a long time, and I can't overemphasize the role of formal 
screening in all of this. We know from pretty rigorous studies 
that child health providers, when they determine a child has a 
developmental delay or is at risk for a developmental delay, 
they are 95 percent correct.
    However, if they used a formal screening tool, they would 
identify 67 percent of children at an earlier age than if they 
waited to just use their clinical judgment. So I know, Darcy, 
Child FIRST has done really an excellent job in screening, and 
I think that that speaks to its success, and I think that is 
why the interventions have been so successful.
    Senator Dodd. Dr. Keck, do you have any comments on this at 
all?
    Mr. Keck. Actually, I do. I learned a whole lot about Head 
Start once I started this project, and Head Start facilities, 
actually 10 percent of the students in each facility are 
required to have either developmental delays or disabilities or 
things of that nature.
    And the interesting thing to note is children with special 
healthcare needs is a very rough definition to actually get 
your hands around because asthma could be a special healthcare 
need. It doesn't need to be physical disability, developmental 
disability. There is a lot of things that go into the idea of 
children with special healthcare needs.
    But from the perspective of being a teacher at Yale, the 
facilities at Yale and the University of Connecticut I think do 
a very good job at least with oral health for children with 
special healthcare needs. Adults with special healthcare needs 
is a different issue altogether. But I think we are doing a 
good job in the State of taking care of children's oral health.
    Senator Dodd. I want to come back to that. Your testimony 
about the oral health of children, I want to come back to it in 
a minute.
    But, Ed, let me ask you, I was impressed. You got 20 States 
that are now involved with 21st Century schools, and you 
mentioned the number, 60 schools in this State, some 1,300 
around the country that are involved. Why only 26? What has 
happened? What are the obstacles that States are having?
    And I was impressed that Kentucky and Arkansas have 
developed school-wide systems. I mean, I say this respectfully 
of Kentucky and Arkansas, but I don't normally think of them as 
being so on the forefront of some of these issues. That will 
probably get me in a lot of trouble now----
    [Laughter.]
    Senator Dodd [continuing]. That headline blaring. But they 
did. They have gone ahead--to their great credit, they have 
gone ahead and done this. And why not other States? What have 
been the problems?
    Mr. Zigler. They keep growing. California has just come 
onboard. But the problem is there are so many things that could 
be done that is not that visible. That is why I would say it 
would need some kind of Federal push, either legislation or 
some dedicated stream of money. It is the startup money that is 
the only problem.
    Our discussion that we have just had rings a bell with me, 
too. I agree with my colleagues. Get in there, I mean, Nobel 
Laureate Heckman has now pointed out that you get your biggest 
payoff for any kind of a program the younger the child.
    I am sure that you have helped, but the Obama 
administration has been very forthcoming. For the very first 
time in all these years--home visiting has been around for at 
least 35 years that I have been cracking it. For the very first 
time, the Obama administration has come up with a stream of 
money to let home visiting take place.
    There is home visiting in every one of these schools, but 
one of the important aspects of home visiting pertains to your 
previous question. One of the most important pieces of work 
that the home visitors do is not just work with the parents, 
but screen the children to pick up these kinds of mental 
health, physical health problems as early as possible and act 
as a broker for the services these children need.
    Senator Dodd. I have used it so many times. I have said it 
so many times over the past 30 years. But with Head Start, the 
requirement from the earliest days, when you go back to 1965, 
that your Head Start program insisted upon parental involvement 
with children. And I think we get about 80 percent involvement. 
These are the numbers I use. I don't know if I am right or not.
    But by the first grade, the parental involvement drops 
generally across the country to less than 20 percent. And so, 
the importance of it, obviously, is clear. What a difference it 
makes. But it does drop off, and anything that can be done to 
increase that parental involvement I think is just huge.
    Abby, I don't know if you want to talk about that in the 
Norwich school systems. I know you talk about it. Let me say, 
too, I have always sensed--and I come from a family of 
teachers. My sister just retired after 41 years of teaching in 
Connecticut, and my father's three sisters taught for 40 years 
apiece in the public high school system of the State. There is 
always some resistance, and I understand why parental 
involvement, interference, teachers trying to do their job. And 
all of a sudden, it is annoying parents that are showing up and 
pushing, nudging, doing everything else, and their kids.
    You always get this feeling that it is not a warm-fuzzy 
relationship, generally speaking, between parents and teachers. 
And I am curious as to how you can start to break that down. It 
seems to me while you can call for it, you could require it, 
but if it isn't part of the seamless relationship that that 
teacher sees that child arrive, you don't see just a child walk 
in the door. You see a family walk in the door.
    To what extent can our educational system--and teachers, 
rightfully, bemoan and say, ``Wait a minute. You trained me to 
be a teacher. Now you want me to be a guidance counselor, a 
minister or a rabbi. You want me to be a policeman. All of 
these jobs you are asking me to do beyond trying to teach a 
child. So you are loading me up as well.''
    It seems to me this is pretty basic, what Mr. Edwards 
talked about, and the first rule of any of these relationships 
is that parental relationship, the role of fathers in this 
relationship. Every one of you have mentioned, I think, to one 
degree or another, the importance of that relationship. But we 
don't seem to be doing a very good job of it. Now how do we do 
a better job?
    Ms. Dolliver. I mean, all that you talk about is what I 
see. Unfortunately, it is a lot of what I see. We work really 
hard to open doors to parents. But it is a culture that you 
have to change that I am here to teach. You give me your kids. 
They are mine. I will have them for this day, and then they go 
back to you.
    We are trying to do more and more programs to invite 
parents in, not just to fund raise or to have activities, but 
to be part of what is happening. For example, at one of our 
middle schools, they have a breakfast where they honor students 
quarterly. It doesn't just mean you are the top of the class. 
Doesn't just mean you are on the honor roll, if you have good 
conduct.
    We find reasons to award kids, and we invite parents in for 
breakfast to be part of that. So those kinds of things. So it 
is not just the call, oh, so and so is not behaving today, or 
they are failing. We are trying to do positive interventions 
with parents to open doors.
    Senator Dodd. Yes.
    Ms. Dolliver. And really, you know, I have to model that 
for the staff that you have to talk to parents. You have to 
listen to them, and you have to hear where they are at and who 
they are. And then it is their family who we are educating.
    Senator Dodd. A lot of the times, the parents that you 
wanted to reach are the ones whom themselves had bad 
experiences necessarily in schools. And so, they are less than 
willing to walk into an environment that was hostile in many 
ways. Probably dropped out in many cases themselves.
    In the case of homeless kids and so forth, they do not have 
the warmest relationship necessarily. So getting that home 
visiting. I mean what Ed talked about, including your 
testimony--beginning with conception. I would like to know how 
you figure that one out.
    [Laughter.]
    I can see the trouble you would be in on that one. A 
Federal program here. I can see the tea party now talking about 
that.
    [Laughter.]
    What the Federal Government is up to here requiring you to 
report on those statistics.
    But the idea of getting involved early on, obviously, is 
important. And being at the home setting, which is the hardest 
thing to do because it is labor intensive. There is sometimes 
just a cultural question of walking in, what does it mean? How 
good is the information you are going to get, people showing up 
at a house, all the nervousness that can pose.
    I mean, all of the problems, and yet I have got to believe, 
having listened to a lot of people, including yourselves, there 
is nothing better than if someone is familiar with that home 
environment, to some extent. Anyone want to comment on that?
    Ms. Day. I just wanted to comment. I think you are right. I 
think the engagement of the family is critical and in a 
positive way, as you were mentioning. Not just getting the 
calls when something is wrong. Not just making referrals to 
programs because the child did something wrong.
    I also agree that we have a program in our shelters where 
we advocate for students who are homeless in the New Haven 
Public Schools, and what we found out is that many of the 
parents were very fearful to tell the teachers that they were 
living in a homeless shelter. Well, who more importantly needs 
to know that that child is living in a homeless shelter than 
the teacher?
    Senator Dodd. Yes.
    Ms. Day. But parents were afraid. They were afraid that 
people were going to assume they were bad parents because they 
were poor and homeless. People were afraid that they were going 
to get a DCF call because they were homeless.
    So I think that the connection between the school and the 
family is critical, and education of the parents and outreach 
to them in a positive way is very important.
    Senator Dodd. Jim Horan, why don't you talk--I was curious 
because you have talked about this as well in getting services 
and programs, parents involved, community involved. The 
recession obviously hasn't helped with more people out of work.
    Mr. Horan. Yes. That is one thing I was thinking about, 
listening to the other panelists right now. The recession 
really has hurt this a lot. You mentioned, as superintendent in 
Norwich, I think 70 layoffs. I think there are 122 in New 
Britain and more in New Haven and other cities all around the 
State.
    I think that that really does hurt because a lot of times 
school districts around the State are making cuts, and they 
have to cut wherever they can. I know in West Hartford, where I 
live, 2 years ago the magnet school resource officer was cut, 
and part of her role was integrating the role of foreign 
language speaking parents in the schools. And that was 
eliminated.
    Now I will say the PTO has really stepped up, and there are 
parents who are translating to bring in other parents to help 
them out. But that is difficult. And it is just as you said, 
too. A lot of the parents who are the ones we most want to get 
involved are the ones who have had poor experiences themselves 
when they were students. You know, they dropped out or had 
other issues in school.
    So we really need to try to change the culture in the 
schools, and I think that is the role starting from the 
superintendent down, and it also has to be kind of from the 
bottom up, with parents pushing and teachers who do feel 
comfortable pushing to make that happen. But it does become 
harder in a time of limited resources like we are facing now, 
as districts are laying off some of the folks who were involved 
in these roles.
    Senator Dodd. Yes.
    Mr. Edwards. If I may just add? There recently has been 
funding by the Parent Trust Fund for parent leadership training 
here in Connecticut. And Parent Leadership Training Institute, 
which Elaine Zimmerman is involved with, and Parents Supporting 
Educational Excellence are both programs that prepare parents 
to have a relationship with schools.
    They are taught about how schools work. They are taught 
about how government works. They are taught about how to be 
strategic in the development of addressing problems that relate 
to their children and others and how to advocate for their 
kids. They are also taught how to read reports that come out 
from the schools about progress and the achievement gap.
    So that is a lot of preparation that is going into working 
with parents. I just recently heard from a principal who said 
that her teachers--the biggest fear of her teachers is a 
conversation with parents. So I think from what I hear, and I 
haven't verified this, but in higher education, there doesn't 
appear to be a lot of emphasis on teaching future teachers how 
to develop relationships with parents.
    Some teachers do it intuitively, and they do a wonderful 
job. But there are others that may need a little help, just 
like parents do. So if parents can be more prepared to kind of 
do that dance with schools, with teachers, children will 
certainly benefit from it.
    Senator Dodd. That is an interesting comment. I would be 
curious to know whether or not any of our schools of education 
have any kind of emphasis at all, even slight emphasis on that 
role. I suspect they don't.
    Mr. Edwards, you seem to indicate they don't. I don't think 
they would. Any further comment on this particular point? Yes?
    Dr. Lowell. I just wanted to comment that you had indicated 
that parents who have had bad experiences themselves are going 
to be more afraid actually to engage with schools. But I mean, 
even more so, they are very hesitant to engage with any kind of 
social service program. So the engagement process becomes so 
fundamental, the building of the relationship with the parent 
so that there is really trust there.
    So instead of seeing whoever this helper is as someone who 
is going to take my child away or will it be a negative 
consequence can see, for instance, our Child FIRST clinical 
team as these are people who are there for me. These are my 
partners. They are going to help me. They are going to make a 
difference.
    We have had parents so many times say, ``You know what, no 
one ever cared what I thought before. No one ever listened to 
me.'' And so, the whole move to have things that are parent 
empowering, that help a parent be the one to be the driver in 
terms of what kinds of services and supports are going to make 
a difference makes a huge difference.
    So the PLTI movement in terms of helping parents understand 
this, but every single relationship that we build with parents 
which helps to build them up, to empower them for their 
children, becomes really very essential in terms of the long-
term outcomes, when we are no longer there for them.
    The other thing I would say just about the relationships in 
the schools is that we have to help teachers really have 
empathy for the conditions of some of the children. Instead of 
seeing children's behavior as ``bad behavior'' and, therefore, 
it is the parents' fault. Instead to really try to understand 
why is a child acting like that, to help them take a much more 
what we call reflective stance to think about what is going on 
inside the child and what is going on inside the parent. What 
are the challenges they are experiencing?
    So that, instead, they can feel like they can be a partner 
and help the parent. That is a real shift and so that they can 
be--we want them to be partners together instead of----
    Senator Dodd. That was one of the things they are doing. 
And again, as you are watching now, particularly in preschool 
and kindergarten and first grade is having a continuum in a lot 
of public schools where that teacher moves with the class. So 
in these early stages, you are getting--my 5-year-old is going 
to kindergarten next year in a public school in Washington, her 
preschool teacher will be her kindergarten teacher next year.
    Dr. Lowell. Well----
    Senator Dodd. And that is great, so there is that sense of 
having that same person. She is very excited about having Ms. 
Burke next year.
    [Laughter.]
    In about a month, to go back in. So that continuum in that 
early stage where they really got to know, in that public 
school, Ms. Burke now knows those 21 children. She knows those 
families that live in our neighborhood, in a very diverse 
neighborhood in Washington. And so, it is really going to be--I 
can see that already having a positive impact on the children 
in that classroom and the parents.
    Ms. Dolliver. Well, that is called looping, and we don't do 
it a lot, but we do it a little. Now we just have to cover 
classrooms with the shortage of numbers of classrooms that we 
have. However, we did it in our middle school with special 
education students, and it was a big deal for the teachers to 
think, now I have to learn the curriculum of eighth grade if I 
was in seventh, or I have to learn the seventh grade if I was 
in sixth.
    But we have done it for 2 years, and it has had a positive 
impact.
    Senator Dodd. It has had a positive impact, yes.
    Ms. Dolliver. They know the kids and their needs and their 
families, and they can continue the relationship. A lot of it, 
so much is about relationship.
    Senator Dodd. You wanted to say something, Tammy?
    Ms. Papa. Yes. Just real quickly, in terms of afterschool, 
because it is a less structured environment than the daytime 
happens to be, we have found that we can involve parents in a 
number of ways. And obviously, the most basic way is to involve 
them in at least one activity throughout the course of each 
semester, the fall and the spring, if you will, and ask them to 
participate with us.
    Most of them will do that, and they feel a little bit more 
comfortable coming in in a less structured environment. But we 
also require that the parents come into the school every single 
day to sign their child out. So they can't beep the horn. The 
kids can't run out. They have to come into the school.
    So it gives our teachers an opportunity to talk to them. 
Not run up to them and say, ``My God, your child today.'' But 
to approach them in a more positive manner, maybe about 
something great that their child has done and really focus on 
words of encouragement as opposed to disappointment as to what 
the child's behavior might have been for that particular day.
    But we also, as part of the 21st century grant, they 
encourage you to do family activities. So, monthly, we do a 
regularly scheduled evening activity, where we provide dinner 
and the opportunity for parents to come into the school, and 
most of our principals will stay for that activity, which 
really helps build the relationships. And have the afterschool 
staff, along with some guest speakers, things that are critical 
to families, whether it is financial literacy, or whatever it 
might be.
    It may be an activity that they can do with their children, 
but we invite the entire family in, provide them with dinner 
and an opportunity to work together on that activity. And that 
has been pretty successful. In a school where maybe we serve 
about 100 children, we may get upwards of 70 families that come 
in for that particular event, and that happens one night during 
the month.
    And then, on the flip side of that, we do need to educate 
our teachers a little bit more. So we provide quite a bit of 
professional development on how to approach parents, how to 
make the schools more welcoming. I know the State Department of 
Education does quite a bit of professional development on this 
topic.
    So I think all those things combined will help bring 
parents into the school and make teachers a little bit more 
comfortable with approaching them.
    Senator Dodd. Let me ask a naive question in a sense, and 
it goes to what you are talking about as well, and that is I am 
always struck with the fact--and again, on the Lighthouse 
Program, which we have worked very closely with over the years, 
and I am a great supporter of it. But it takes some initiation 
on the part of parents to get in the program.
    And a lot of these things we have talked about here require 
parental initiation. And yet the very people we are talking 
about that are the most in need are the ones where that is less 
likely to occur. We are not serving but a fraction of the 
population. What, at Head Start, what are we? One in four, Ed, 
to this day even? One in four of the eligible Head Start 
population in the United States being served by Head Start?
    Mr. Zigler. The eligible population is about 45 percent.
    Senator Dodd. And we are serving?
    Mr. Zigler. Forty-five percent of the kids that are 
eligible after 45 years of Head Start.
    Senator Dodd. Yes. So, again, it takes someone to step up 
and to seek to be enrolled. And many times, it is the most 
vulnerable families that just don't take the step. And so, it 
is always frustrating to me because the ones who, to their 
great credit, do try to get into those programs, want to be in 
that afterschool program, want to be in these things. And even 
though they are very poor, they deserve a great deal of credit 
for fighting on behalf of their children and their future.
    But so much of the most vulnerable kids and families just 
don't even know how to navigate this at all, and that is a----
    Ms. Honigfeld. Can I make a comment to that?
    Senator Dodd. Yes.
    Ms. Honigfeld. I think that is absolutely true, and that is 
why we really need to exploit the child health system because 
every family needs to take their child to the doctor or they 
are not going to go to Head Start. They are not going to go to 
school. They are not going to go to camp. They are not going to 
go to other childcare. And I think that is a system we really 
need to exploit in terms of doing a better job educating child 
health providers to encourage parents and actually to use 
systems like Help Me Grow to link parents to all the programs 
that are available for their engagement.
    Senator Dodd. I am very impressed on how much of that has 
been replicated.
    Dr. Lowell. Also, I couldn't emphasize enough because the 
engagement process is very difficult, and it is very costly. I 
mean, I can't tell you how many children in families who 
initially--who we find, who are interested, who are very high 
risk, but from the time that they are identified to the time we 
can actually engage them in services sometimes takes over a 
month of persistence, of calls, of letters, of dropping them 
notes at their door, if necessary, to before they are really 
willing to have us actually come in.
    And so, we are really about engaging the very highest risk 
children and families. And actually, our research, one of the 
things about the way we did our research, which was the 
randomized trial, we actually did randomize into a control 
group and an intervention group so that we could see where we 
disproportionately were losing the high-risk children.
    And what we found is if you are persistent and if you also 
take a nurturing stance that we are there to help you, but you 
have to be--I mean, it is not short-term. It is not three 
strikes and you are out. You have to really be there and be 
willing to keep at it. You can engage these families because 
they want the best for their kids.
    And when they feel like you are there for them, they are 
willing to--and something about what Lisa said, just one family 
comes to mind so really prominently. We had a family who came 
in, a little 3\1/2\-year-old girl and a very proud mom. And 
physical exam was normal, but we had done screens.
    And the screen was positive only for maternal depression. 
Nothing else was positive. And we had a clinician who is 
embedded in our pediatric primary care center who said to this 
mom after her visit, before she left the pediatric clinic, you 
know, I was wondering, is there anything we can do to help you? 
Because I see that you said that sometimes you feel life is so 
hard you don't even know if you can continue.
    And it was based on that, this mom looked at our clinician, 
who is just the most warm, wonderful person, and she had dark 
glasses on. She took them off, and she started to cry. And it 
was that connection that never would have been made. It ended 
up there was a domestic violence situation. They had an 
apartment. They had no beds. They had no table. Her child was 
being evicted from childcare.
    I mean, there was a multiple risk family. We never would 
have found them without that pediatric screening. But it took 
us 6 weeks from the time she said ``yes, come'' before we 
actually got in the home. So it says persistence makes a 
difference.
    Senator Dodd. It is labor-intensive.
    Ms. Day. Well, and you also bring up a good point. I mean, 
there are 1.5 million families that are homeless or unstably 
housed, and those are the ones we know about. Many of them are 
in motels or doubled up, and we don't know----
    Senator Dodd. There is 1.5 more that is--the number is 
stacked. Yes.
    Ms. Day. Correct. And how can you pay attention to anything 
if you don't have any food, clothing, or shelter?
    Dr. Lowell. That is right. You can't.
    Ms. Day. You are not going to go to the doctor. You are not 
going to pay attention to whether your kid is behaving or not 
behaving. The stressors on the family and the parents are so 
high that that is what makes the engagement difficult, too.
    I mean, I think we really need to pay attention to our 
families' basic needs in order to be able to provide what Dr. 
Zigler talked about, the family, health, education, and 
childcare. You can't have any of that unless you have food, 
clothing, and shelter.
    Dr. Lowell. Stabilization. You have to have that first.
    Senator Dodd. Let me jump to Dr. Keck. I want to--because I 
was stunned by your statistics. Thirty percent of 3- to 5-year-
olds in Head Start have tooth decay?
    Mr. Keck. I can testify to that because, as part of the 
program that we are developing, last year we started examining 
the Head Start children in the schools. It goes along with the 
whole idea that getting active participation from the parents 
can sometimes be very difficult.
    So we have gone out to the schools to conduct the initial 
examination. And we didn't get through all 900, but with the 
150, that statistic is true. This is a national statistic, but 
it holds true in the State of Connecticut.
    The second thing that we have learned since starting the 
project, at least in the State of Connecticut, is for the 
program to work, we have done a good job about getting the 
children examinations. But the follow-through to future care, 
getting the cavities treated--and it is probably the same in 
pediatrics--and follow-through is a big issue.
    There is a person called the family service worker that is 
responsible, sadly to say, for about 35 to 40 families, 
students in the class that do go out and do the home 
visitation. And we are trying to make it a part. We have been 
educating the Head Start staff to particularly the family 
service workers, when they go out to the homes, to make oral 
health a part of the family health partnership agreement, as 
well as several different things.
    Usually you can only have so much of things on a list. I 
agree that home and food and all that is important, but we are 
trying to move oral health up on the list.
    Senator Dodd. Well, I just want to tell you, I think it is 
so important. To me, oral health, and this is such a window on 
so many of the problems. And for years, it has been just so 
neglected. And to me, if you had to pick at just one area, the 
oral health thing is huge to me.
    Mr. Keck. In my private practice, we also see Medicaid 
patients, Head Start patients as well, and the amount of dental 
decay is certainly not decreasing. My partners and I go to the 
hospital once a week to do two or three cases a week. I know 
the residency program at Yale does probably 10 cases a week of 
underserved children who have multiple cavities in their mouth 
and are younger than the age of 3 because they can't be treated 
realistically in a normal dental environment.
    Senator Dodd. Well, and I noticed the community health 
centers. I was in New Britain. We have about 12 or 13 community 
health centers in the State, which are great, and one of the 
things we did in the healthcare bill is just expand 
tremendously the number of resources to expand community health 
services. And in New Britain, the facility there, they had the 
mobile dental clinic that goes to schools.
    Now this is not Head Start, this is----
    Mr. Keck. Correct.
    Senator Dodd [continuing]. I presume kids in elementary or 
middle school or high schools, and that mobile dental chair to 
get around was part of the student health, which I am impressed 
with. I think it is impressive. But this is far beyond, what 
you are talking about.
    Mr. Keck. Well, the thing that we have also been trying to 
carry through not just from Head Start, but through the State 
as far as dentistry goes, with the increase in the number of 
providers, patients that are on HUSKY A, HUSKY B aren't 
necessarily relegated to go to safety net facilities anymore. 
There are plenty of private providers.
    And we also have to educate parents because many of them 
fear going into a private practice environment other than a 
safety net or a clinic, as you are talking about.
    Senator Dodd. Yes.
    Mr. Keck. I think education, and that is a part of this----
    Senator Dodd. You have 40 dentists in Connecticut. I am 
impressed you got that many.
    Mr. Keck. Well, it is actually----
    Senator Dodd. Connecticut magazine this month has the list 
of all the 100 best dentists in Connecticut.
    Mr. Keck. The list is actually greater than that. Those are 
40 that I have personally gotten to work directly with Head 
Start. But as I said, there are many, many dentists, both 
pediatric and general, that have chosen to help and treat young 
children.
    Senator Dodd. Yes. Well, good. How you take that program 
nationally could be very important.
    Mr. Keck. The Head Start program, it is a 5-year contract, 
and at this point in time, there are approximately 35 States 
that it has rolled out. It has been over a 5-year period. 
Connecticut was one of the six States that started this 
initiative. So we are kind of well on our way, and many States, 
like California, Texas, are going to have more of an issue. 
Sheer size is part of it.
    Senator Dodd. Let me ask, and this is something that Ed 
Zigler and I have talked about over the years and the 
difficulty of attracting and retaining good staff. Again, what 
we pay childcare workers has been a historic set of issues, 
afterschool staff. All the difficulty of how you keep people, 
how you--we have upped the matter over the years to bump the 
educational levels, but also the compensation for Head Start 
workers and the like so you don't end up with that turnover 
that we have all the time.
    How do you retain your staff? How do you retain your staff 
at your Lighthouse Program?
    Ms. Papa. We employ just about 300 people through our 
subcontracts with community agencies like the YMCA, ABCD, some 
of our colleges. Professional development to really help them 
do their jobs and listening to them as to what they need in 
terms of professional development. I think in any given year, 
we will do about 30 different workshops for staff to come to.
    We do pay them well. Our certified teachers who work with 
us get between $28 and $32 an hour, and the coordinators that 
actually operate the program get anywhere from $32 to $36 an 
hour. But I can tell you through conversations with these 
individuals for going out to the individual sites, they don't 
stay because of the money. They stay because they truly, truly 
enjoy what they do.
    And when we find somebody that is there because of the 
money--and everybody needs to make a little bit of extra 
money--we never begrudge anybody that. But when we find that 
that is the primary reason, then we work with that person to 
try and change that attitude toward his or her job.
    If they don't, then they are probably really not cut out 
for the type of work we need them to do because, for us, the 
child does need to come first, and his or her needs need to 
come first. But having said that, it is just really keeping 
that open line of communication, working with principals and 
other daytime staff to really determine who within the school 
might be best suited for these positions. It is a long day for 
people.
    And we don't just recruit from within the school. But 
certainly the connections that we can make within the school 
and getting some of the staff from within the school really 
help to build the academic portion of our program and really 
help to link school day and afterschool.
    But even working with our agencies, it is really recruiting 
the right type of person to begin with.
    Senator Dodd. Ed, you wanted to comment on that? We have 
wrestled with this for years.
    Mr. Zigler. Just be aware, Senator, that what you have just 
heard is a model that I wish we could replicate everywhere in 
the country. It is not standard. Most schools, their problem is 
how do you pay these afterschool workers? Never mind what you 
pay a teacher and that. Salary is a huge problem.
    Let me point out to you one of the biggest problems with 
the 21st century children's learning centers. And perhaps you 
remember when I worked with Senator Specter, your colleague on 
the Children's Caucus, to try to reverse President Bush's 
attempt to cut the 21st century learning centers?
    Senator Dodd. Sure.
    Mr. Zigler. We were successful, thanks to Senator Specter. 
But that flow of money is the only flow of money there is to 
the schools to provide afterschool care. None of it is as good 
as this model we have just heard about. We are delighted to 
have you here.
    Ms. Papa. Thank you.
    Mr. Zigler. But the fact is after 5 years of getting that 
money, they have to start weaning themselves away from it, and 
there is no fund of money. So once you go 5 years in that 
program, you are through. And so, getting money to pay people--
this is true in Head Start, too. The reason we are only serving 
45 percent of eligible kids after four decades is not because 
we can't--parents don't bring their kids, there isn't any money 
in Head Start to serve more kids than that.
    So no one knows better than you that every one of these 
problems we are discussing is always a problem of money, money, 
money. And you know, your new effort, you are going to find 
what we already know. Compared to the rest of the world's 
advanced, industrialized countries, kids in the--according to 
the World Health Organization, the United States is at the 
absolute bottom. Part of it is the high poverty rate, but the 
bottom. And it is always a matter of money and priorities.
    You spent your life trying to make children and families 
the priority they ought to be in this country. But after my own 
decades-long effort, we have not succeeded. It is simply a 
matter of getting the Congress to provide the money for Head 
Start, for afterschool, dental care, wonderful programs, every 
program we have heard this morning. But where is the money to 
do these? And that is the basic issue.
    Senator Dodd. Yes, and we are going to face, as we look at 
the arguments again, significant cost reductions in a lot of 
these areas as well. So the problems are going to surmount. And 
we have only really in the last, well, 45 years have been 
involved in much of this at all. Up until 1965, Title I, the 
Federal Government was not involved at all in education, except 
on a marginal basis.
    Dr. Lowell. Addressing the money issue, we have some 
wonderful legislation that I think is really not used 
optimally, and I would specifically talk about EPSDT, which is 
Early Periodic Screening, Diagnosis, and Treatment. Here we 
have talked a lot about getting children early and prevention, 
and that is a law which is specifically targeted for 
prevention.
    It says if you can find them early enough and if you can 
give them what they need, you can avoid serious problems. And 
they can be health problems. They can be mental health 
problems. But they really define ``health'' quite broadly in 
that legislation.
    And yet we have not been able to use it, both in 
Connecticut and elsewhere, effectively to meet the needs of 
children early, and yet that is why it was created.
    Senator Dodd. Why haven't we been able to?
    Dr. Lowell. Well, I think one of the reasons is States can 
define what they consider medical necessity individually. We 
have defined medical necessity as diagnosis. But diagnosis 
means you already have a disorder.
    So, in a sense, we are not using the bill appropriately. If 
you look at the bill itself, it doesn't talk about you need a 
diagnosis to treat. It talks about you need medical necessity 
to treat.
    For instance, look at children who--infants of depressed 
mothers as an example. An infant of a depressed mother is not 
going to be showing us symptoms until they get pretty severe, 
the child is in pretty severe straits. The mom, we know--if she 
is seriously depressed, we know the consequences for that 
child.
    So we should be able to get into that home, in the home, 
not ask mom to come to an agency because she won't come. We 
know that. We have lots of data that says that is not the way 
to approach these moms. But we need to go in the home and treat 
the mother and treat the mother and child together. Make a huge 
difference.
    You could use EPSDT funds to do that, and yet we don't. We 
don't have the codes to be able to do that. I mean, even though 
the legislation says the State does not have to have this as 
part of their Medicaid policy, nonetheless, you do have to have 
a way to actually do the billing. And many States have resorted 
to lawsuits because of these issues.
    We haven't in Connecticut. I hope we never will. But I 
think we do need some changes because it is a huge possibility 
for the Federal Government to be paying 50 cents on the dollar 
to help us with these.
    Senator Dodd. Yes. Jim, do you want to comment on this?
    Mr. Horan. Yes. I will echo Dr. Lowell's support for 
prevention and getting in early and saving on the back end. But 
we have made some really bad decisions in public policy over 
time. Just talking with a colleague before we started here this 
morning. We imprison four times the number of people today in 
Connecticut than we did in 1980.
    We found the money to build those prisons and to pay for 
the correction system over time, and yet the issues of 
childcare workers and early care and education workers not 
being paid adequately or not reaching all kids that qualify for 
Head Start or other programs, that hasn't changed. So a lot of 
it has to do with public will and the will of our elected 
leaders.
    We, all of us are responsible for helping to make that 
happen. We are really going to miss your leadership in the 
Senate because you have been terrific on these issues over the 
decades, and there are not many other leaders like you.
    And so, it is really up to all of us and all of our 
colleagues and the people we know to get active and to get 
everyone empowered to do what they need to do and to get our 
leaders to do the right things. Because going back to the issue 
of corrections, Connecticut is one of only two States in the 
country that spends more on corrections than on higher 
education. I mean, how wrong-headed is that?
    And yet we have allowed that, as voters in Connecticut, to 
occur over the decades. And we have to reverse that and get the 
investments made in the right places if we want to see the 
results for kids.
    Senator Dodd. And you are preaching to the choir.
    Ms. Honigfeld. Just also before we really talk down on our 
State that much, I do want to say that there is tremendous 
duplication in terms of services provided and ensuring people's 
access to services. And it really behooves us to start looking 
at the funding that we do have here in Connecticut and putting 
that together in the best ways to serve families and children.
    Senator Dodd. Yes. Good point.
    Mr. Edwards, tell me a little bit, because I was so 
impressed with what you are doing, and it seems so basic in all 
of this, the role of fathers in all of this. And again, working 
on the presumption that men want to be good fathers, just as 
parents want to be good parents. And tapping into that very 
natural instinct. It is not an adverse instinct.
    Any other thoughts you have on how we can do a better job 
of that? And again, we are looking at maybe thinking of it 
again with Jim talking about the number of people incarcerated 
and, of course, the number of--obviously, the overwhelming 
majority being males, a lot of them fathers, obviously. Totally 
distanced from their children.
    So there are so many issues surrounding the role of fathers 
and their absence in the development of a child. What 
additional thoughts do you have for us?
    Mr. Edwards. Well, I have done several groups with Head 
Start and fatherhood programs in Head Start schools, and there 
has been a wonderful reception on the part of the fathers--and 
of the mothers and of the teachers--to get fathers engaged 
early on, to let them realize how important they are in the 
lives of their children in terms of making the connection 
between father involvement and academic achievement for kids.
    So we do 10 weeks of 2.5 hours each with the dads, and we 
talk about all of those things. It gives them a desire to 
connect with their children. We want them to be really alert to 
the fact that, you know what, you are the architect of your 
child's life. You are the construction manager. You are 
building something. You are the custodian of your child's life.
    The scary part about being a parent, you can set them up 
for success, but you can also set them up for failure. So we 
want to get that message into them really early on, get them 
connected with the type of agencies that will provide the help. 
Get them to be really, really thoughtful about their unique and 
distinct way that they are as dads is very different than mom, 
and what those qualities and values are as a dad.
    So that their relationship with their child will continue 
even if they are not in a love relationship with mom. So we 
want to plant the seeds of co-parenting really, really early.
    Senator Dodd. Have you tried anything with--I am curious 
whether or not, for instance, where instead of having parents' 
time, you just have father time. So there are only fathers 
invited?
    Mr. Edwards. Yes. That is mainly what we do, mainly what we 
do. Most of the work with Head Start is only fathers. So, Head 
Start, I may do a program for 4 weeks, 6 weeks or 8 weeks, 
depending on the funding for the school. And the first week, we 
start off with mom and dad because we want mom to know what is 
going on with the program.
    The second week is dads, and they bring their kids. And we 
eat dinner for half an hour, and then we spent an hour and a 
half with dad. So there is just a group of dads in the room, 
and that continues on.
    The last week, we bring mom back, and there is a 
celebration and a dinner. And we line the dads up, and the kids 
hand them their certificates of completion for the program to 
celebrate. So the kids get the idea that my dad is a lifelong 
learner. He went to school, and he learned something. That is 
modeling.
    So that is what we like to see with that. And the dads, I 
hear stories from the moms about how not only has he changed in 
his relationship with the child, but he has also changed as a 
man in relation to mom. So it is just the more we can plant 
those seeds really, really early to make dads aware of their 
potential----
    Senator Dodd. Well, that is Ed's point. That is Ed Zigler's 
point.
    Mr. Edwards. Yes, the better off we will be.
    Mr. Zigler. There at conception.
    [Laughter.]
    Senator Dodd. He is still fighting for conception here. I 
will leave that to the next Senator from Connecticut. I won't 
take on that issue.
    Mr. Zigler. Those first 9 months of life are such a 
wonderful time because the mother and the father are totally 
involved in this process and prenatal care and all the things 
that you have heard about. We think birth is early enough. It 
is not. It is conception on.
    Senator Dodd. Yes, I agree.
    Mr. Edwards. One other thing is that we also talk to them 
about the first 1,000 days of that child's life and how very 
important that is in terms of brain development, in terms of 
lowering the risk factors, in terms of creating a wonderful, 
warm, positive environment that is a rich language environment 
and they are getting the healthcare that they need. That, 
hopefully, will start to get them in tune to the fact that this 
is a long-term commitment that I just have to do.
    Senator Dodd. Yes. I literally could spend all day with 
you. I can't tell you how proud I am of what goes on in my own 
State, to hear these terrific things that are being done by 
people here. I know the hard work and the people who work with 
you and how much time they spend and the efforts they make. And 
your point, Dr. Lowell, of just 6 weeks in that one family just 
to get her in the door and how that magical moment occurred.
    Dr. Lowell. It made a big difference.
    Senator Dodd. And how hard this is to achieve, but it is 
worth the effort. The future belongs 100 percent to them, and 
that is why Arlen Specter and I, almost 30 years ago, started 
the Children's Caucus in the Senate. We had a caucus for every 
imaginable constituency in America that you could think of 
except the 1 in 4 Americans who are under the age of 18.
    We started with that, and over the years, we had rump 
hearings. We couldn't even get funding for hearings. I was 
telling a group of the interns the other day in the office, I 
remember Paula Hawkins, who was my new Senate colleague from 
Florida. She came to a hearing. She wanted to come and testify, 
and it sounds rather routine today. But 30 years ago, to have a 
woman U.S. Senator come and talk about how they were being 
sexually abused as a child was banner headlines across the 
country in terms of just unprecedented news.
    And what she did, though, just by that and how she opened 
up the door for a lot of other people to talk about what had 
been going on, obviously. I mean, just things like that. We had 
hearings with Bill Bradley on afterschool programs in New York 
at the time. And so, it has been tremendously rewarding, and 
there has been improvement.
    And obviously the challenges grow, and each generation 
poses new ones. But this has been tremendously helpful, and I 
literally could spend all day with you. I have so many 
questions to ask. But I am getting notes from my staff that I 
am already approaching 3 hours of your time here this morning.
    So it is running out your patience. I know you have other 
work to do. But it has been tremendously helpful. And I am 
going to leave the record open because I have some additional 
questions we may submit to you in writing.
    The testimony was terrific. I just can't tell you how 
compelling it was to go over it yesterday, reading all of your 
various suggestions and ideas and statistics. Particularly, I 
must tell you, on the homeless, it was just breath-taking. I 
was reading it to my wife this morning about 6:30 a.m. and with 
our 5-year-old sitting there, talking about predilection for 
separation between parents and children who are homeless. It 
was a very moving number to me, very sad to see that happen.
    I thank everyone who is in the room, and so many of you do 
so much every day. I promised you I would let you ask some 
questions, but I think we have run out of time. But if you have 
some additional questions, let us know and we will try and 
submit them to people here at the panel. And we will move on 
and then try to build some support for this permanent council.
    Again, I have talked to people at the Yale Child Study 
Center about the IDEA law, maybe with Save The Children on 
developing that report card so we can start looking each year 
at where we are headed and when we are stepping back a bit.
    That may help my colleagues and others, Ed. It may give 
them some sense of this instead of having to wait every 20 
years to get some report how things are to know the trim lines 
because I have got to believe again--I mean, this is--again, 
this ought to be an issue that transcends any ideology of 
politics. I can't imagine a subject matter in which there ought 
to be a greater sense of common interest than figuring out how 
we do a better job with all the pressures on families that are 
tremendous today.
    And the stress that you point out, Ed, and everyone has 
mentioned here is just huge. And it isn't just on the poorest 
of families. Hard-working middle-income families are all of a 
sudden watching a dad at age 50, watch them lose a job and 
wondering where the next one comes from, and the kind of 
pressure that is associated with that, and the long-term 
effects.
    Ben Bernanke, the Chairman of the Federal Reserve, was 
appearing before me the other day in my other hat as the 
chairman of the Banking Committee, and he has written 
extensively on the long-term effects of recessions like this 
and beyond just the immediate loss of job, but what it does. 
The long-term implications, behavioral effects that it has on 
families and individuals, felt long after recessions are over 
with statistically. When work comes back and people are re-
employed and the economy begins to improve, there are residual 
effects of these downturns economically that are felt for years 
and years and years afterwards.
    So beyond all the numbers we talk about, in terms of gross 
domestic product and unemployment numbers and foreclosures and 
all the other things, there are other things occurring out 
there that are far more difficult to calibrate on a daily or 
weekly or monthly and annual basis that we are going to live 
with for a long time. And we are experiencing them already.
    So these issues are going to be with us for a while, and we 
just need to do a better job of addressing them. And you have 
been a great help this morning, and I thank all of you. How 
about a round of applause for our witnesses?
    [Applause.]
    Thank you, Ed.
    And they brought this gavel up. So I will use it one more 
time.
    [Laughter.]
    The committee is adjourned. How is that?
    [Additional material follows.]

                          ADDITIONAL MATERIAL


          Prepared Statement of Debra P. Hauser, Ph.D., M.S.W.

    I cannot convey my depth of gratitude to Senator Dodd for his 
decades of enlightened leadership on behalf of children. His early 
support of children and their families, years before it became chic and 
before he had children of his own, exemplifies his compassion, wisdom, 
and courage.
    Thank you for allowing me the honor of participating in these 
historic hearings on the State of the American Child and inviting me to 
present written testimony.

Facts

    <bullet> Since 1958, infant mortality has risen to 7 percent, 
doubling among minority groups.
    <bullet> In 2005, 2,642 Connecticut children were homeless and 
34,428 people--including children--were turned away from homeless 
shelters for lack of room.
    <bullet> As of 2006, 17 percent of children were obese and 22 
percent were food insecure.
    <bullet> In 2007, 85,530 or 10.6 percent of Connecticut's children 
under 18 lived in poverty, costing $11,800 per child per year of 
poverty in lost future productivity.
    <bullet> On average, in the United States, only 20 percent of 
children who require mental health services receive them as the result 
of a profound shortage of youth therapists, prohibitive waiting lists 
in community clinics, ignorance or lack of awareness of symptoms (i.e., 
seeing troubled kids as bad rather than in need of help), and a long-
standing social stigma related to mental illness.
    <bullet> Under our current criminal justice system, the number of 
prison cells needed in the United States can be predicted by 
calculating how many fourth grade boys cannot read.
    <bullet> Among juveniles in detention, 70 percent are mentally ill, 
50 percent have been exposed to or are victims of trauma, and 90 
percent cannot read above the sixth grade level.
    <bullet> The achievement gap puts minority youths 4 years behind 
non-minority students; yet even the best U.S. students are 2 years 
behind their international counterparts.
    <bullet> Formerly a world leader in high school graduation rates, 
today the U.S. ranks 18th among the top 24 industrialized nations.
    <bullet> Closing the U.S. achievement gap would increase our GDP 
from 9 percent to 16 percent and up to $1.8 trillion.

                              INTRODUCTION

    The problems besetting America's children have significant negative 
consequences for our Nation's overall potential and productivity. But 
solving those problems is complicated by significant State-by-State 
differences in how children are faring as well as a lack of a coherent 
national children's policy. A national commission on children might 
begin laying the groundwork to provide that vision by coordinating, 
evaluating, and initiating effective public policy.
    I thoroughly support Senator Dodd's proposal to initiate a U.S. 
Commission on Children and America's Young People. Establishing such a 
national body focused on the policy issues facing American children and 
youths is an exceptional and much-needed step. I hope and pray it will 
have real authority to fundamentally improve the lives of American 
children. I also hope this body can be more than a study commission or 
academic clearinghouse. I would like it to be given legal authority and 
fiscal responsibility over U.S. domestic policy related to children and 
youth. To ensure this, I suggest that the Director of this body become 
a cabinet secretary with direct access to the President.
    The U.S. Commission on Children and America's Young People could 
establish standards of well-being for American children, coordinate 
Federal policy affecting young people, and oversee program evaluation 
and funding.
    The following remarks address the structure, scope, and authority 
of the proposed commission and outline possible directions of first-
year initiatives for the committee's consideration.

              STRUCTURE OF NATIONAL COMMISSION ON CHILDREN

    I recommend that the commission have a national director, who would 
be a member of the President's cabinet, and five or six regional deputy 
directors. Each State should have a State director responsible for 
recruiting qualified people with expertise in a range of areas--people 
who are also gifted, energetic, and committed to children and their 
issues. State directors should be responsible for gathering and 
synthesizing information about issues facing children and their 
families within their States; they should also be responsible for doing 
in-State program evaluations. State directors should also review 
outcome data to inform future funding decisions.
    As America undergoes rapid economic changes, it is imperative that 
this national body has fluid bottom-up and top-down communication 
capacities. It is likewise essential that the commission's leadership 
and board have access to the varied perspectives of parents, educators, 
physicians, psychologists, social workers, community workers, athletic 
coaches, child advocates, lawyers, religious leaders and others who 
have ongoing and direct contact with children and can knowledgeably 
develop benchmarks for children's well-being, evaluate strengths and 
weaknesses in existing services, and offer suggestions for addressing 
unmet needs.
    The commission would be well-served to have a racially and 
culturally diverse board from a wide range of backgrounds--including 
businesspeople as well as community members knowledgeable about their 
regions' problems--who can help establish a policy agenda.

              SCOPE OF THE NATIONAL COMMISSION ON CHILDREN

    Science now acknowledges that brains in both females and males do 
not develop fully until the mid-twenties. Thus, to be effective, the 
age range addressed by the commission should be broad, perhaps from 
birth to age 25. The length of time it takes to reach adulthood in an 
advanced industrialized nation suggests that young people need to be 
supported by policies through college or young adulthood. The current 
legal cut-off age of support and services for youth at 18 now seems 
arbitrary and out of sync with reality. Investing in the well-being of 
America's young people for an extended period would likely 
significantly increase their economic success.

                   INDICATORS OF CHILDREN'S WELLBEING

    Indicators of children's well-being should include both physical 
and psychological milestones. These indicators should also include 
other relevant educational statistics: grade level reading; number of 
disciplinary actions per year; and hours devoted to sports, creative 
activities, or community involvement. Indicators should also address 
rates of youth violence and crime, teen pregnancy, and high school 
dropouts. Information from a number of wraparound indicators will 
provide a more useful, three dimensional assessment of how children are 
actually doing. It may be prudent to access milestones every 2 years in 
order to stay abreast of the state of children and make policy course 
corrections as needed.
    The following indicators are examples of ways to think about well-
being from multiple perspectives. As a clinical psychologist, my view 
of children's well-being in infancy is often demarcated by a baby's 
ability to lift his or her head, learn to suckle, and form an 
attachment with the primary caregiver. In toddlerhood, normal behaviors 
may include brief interest in exploration away from the primary 
caregiver and the capacity to play. For elementary school children, 
some indicators of success could include accessing growing imagination 
and school competency. Identity exploration, an ability to think 
abstractly, and a preoccupation with friends could be considered 
markers for teenagers, while the knowledge of one's career interest and 
romantic involvement may be the notable hallmarks of the early 
twenties.

                       TECHNOLOGY AND MILESTONES

How Are the Children Doing Today?

    Investments should be made in developing the capacity to gather 
information and chart how America's children are doing at a given time. 
Developmental markers, once determined, need to be entered into a 
centralized database. Data could be obtained from schools, mental 
health settings, hospitals and doctors' offices, as well as the offices 
of DCF, juvenile justice and probation. Milestones without the 
technology to track and analyze the condition of America's children 
will be meaningless. This need for data may also provide an impetus for 
the use of electronic medical records, which should simultaneously 
improve the delivery of overall health care--including mental health 
care--for all children and their families.
    With a databank infrastructure in place, the national commission 
could evaluate wellness and the needs of American children and provide 
a State-by-State report card at the end of each year, as well as an 
aggregate measure of U.S. progress or failure. This national grade 
could be periodically compared to other developed countries to estimate 
how American children are doing compared to their global counterparts 
on a number of indicators across time.

      THE NEXUS OF EDUCATION, MENTAL HEALTH, AND JUVENILE JUSTICE

    At five to nine times the world average, the United States has the 
highest incarceration rates in the developed world. This reflects the 
upside-down nature of investments whereby America over-funds its prison 
programs and under-funds its education and mental health programs. This 
topsy-turvy approach to setting policies is exacerbated by the lack of 
a coherent frame of reference for addressing the needs of child and 
youth. We have no means of coordinating young people's policy across 
agencies. And previously, we seem to lack the political will to keep 
all our children out of harm's way.

      INVESTMENTS THE UNITED STATES NEEDS TO MAKE IN OUR CHILDREN

    1. Attend to the Basic Needs of Food and Shelter First--Eliminate 
hunger, food insecurity, and homelessness in America. Homelessness and 
hunger must no longer ravage the lives of American children. A child 
who is living with chronic instability, fear, and hunger will be unable 
to develop normally or learn appropriately.
    Invest in affordable housing.
    Invest in universal childcare.
    2. Expand Children's Health Care to Include Dental Care--Dental 
care is essential to ongoing good health for children and adults.
    3. Expand Children's Health Care to Include Mental Health Care--
Improve access to effective mental health services, beginning in pre-
school. Early detection and treatment of troubled students is much 
cheaper than the costs of incarceration, lost wages and taxes, and 
welfare.
    Develop a comprehensive public education campaign, akin to the 
anti-smoking campaign, to reduce the stigma connected with mental 
illness, emotional problems, learning disorders, and other problems of 
the human experience.
    End law-and-order education policies--zero tolerance, expedient 
suspensions, and drop-of-the-hat expulsions--by training school 
personnel to have greater psychological awareness and by providing 
administrators with abundant alternative solutions, such as access to 
mental health services in schools and in the community.
    Offer incentives (such as college loan forgiveness) for therapists 
to learn how to treat children appropriately in order to address the 
profound shortage of qualified professionals.
    Stop using jail as the answer to children's social, emotional, 
educational, and economic problems. Stop warehousing poor, illiterate, 
and/or emotionally disturbed children in juvenile detention centers. 
Give them the help they need treating their problems and remedying 
their underlying causes.
    Dramatically expand mental health services by increasing access, 
offering incentives for college students to study child modalities, 
improving quality of treatment, and disseminating information about 
effective, evidence-based practices by means of publications and 
electronic media in clinics and therapist's offices, and unifying 
requirements for continuing education for all clinicians treating 
children.
    4. Expand the Definition of Trauma, Acknowledge its Ubiquity, and 
Provide Early Treatment--In our increasingly violent world, trauma has 
been traditionally viewed as exposure to violence, as either a witness 
or a victim, that occurs in the home (domestic violence), in the 
community (school or gang violence), in the context of combat or 
torture, and in a natural disaster. The definition of trauma should now 
be expanded to include significant losses in childhood, and appropriate 
treatment should be made available. Trauma criteria should now include: 
the loss of a first-degree relative due to death, illness, divorce, 
military service or incarceration; threats to bodily integrity, such as 
with cancer, severe illness, accidental injury or violent crime; and 
the chronic deprivation of poverty, physical or sexual abuse, and 
homelessness. Trauma could also be defined as any unexpected event in 
which one feels overwhelmingly threatened and helpless, such as with a 
sudden job loss.
    There is a deeply concerning U.S. trend whereby there is at once 
greater tolerance of violence and greater violence in homes and 
communities. There are several well-known, but chronically ignored 
studies on the desensitizing effects on children who play violent games 
or watch violent electronic media, such as television or online videos. 
There is little that is positive, redeeming or inspiring on mainstream 
media outlets. The popularity of aggressive, so-called reality TV shows 
illustrates the level of American interpersonal competition and 
tolerance, even taste for aggression.
    5. Support Effective and Lasting Education Reform--Develop and 
implement a voluntary, consensus-driven national curriculum to ensure 
consistent educational standards across State lines.
    Emphasize the importance of a strong system of support and 
resources that includes curriculum guidelines and professional teacher 
development. Be cautioned against jumping directly from developing the 
standards to administering aligned assessments.
    Require U.S. students to meet international standards of learning 
and student performance.
    6. Give Juveniles Genuine & Age-Appropriate Justice--Treat problems 
early. Small children have small problems; big kids have big problems.
    Detention centers need to be rehabilitative--not punitive. Except 
for those who are very ill or dangerous, the practice of keeping young 
people in juvenile detention centers must be abolished.
    Provide readily available alternatives to detention when necessary, 
including residential treatment and respite for caregivers.
    Widely expand community services and recreational facilities and 
make them available from early childhood through young adulthood.
    Invest heavily in after-school programs and trade school training 
programs, especially for at-risk youth.

                      Cautionary Notes on Children

                               NEW MEDIA

    Hillary Clinton noted that America was undergoing the largest 
experiment on children in history regarding their long hours of 
exposure to computers, video games, and cell phones--an exposure that 
leads to addiction for some. Despite the negative effects on weight 
associated with the sedentary nature of sitting in front of computer or 
TV screens for extended periods, the effects of over-stimulating images 
and interactions, often violent or gratuitously sexual in nature, and 
the immediate gratification of computer interaction (faster and faster) 
on short- and long-term physical and mental development in children are 
virtually unknown and largely unexplored.
    It would be in the best interest of children and young people to 
have a comprehensive and rigorous series of studies examine the 
possible effects of children's exposure to and interaction with 
current, new, and emerging media formats and products.

    Leverage the power of new media for productive uses.

    As part of its policy innovation, the national commission should 
find ways to promote and prevent contagious behaviors through 
leveraging the viral nature of online media.

                        TELEVISION AND MARKETING

    Since World War II, advertisers have spent trillions of dollars to 
develop media campaigns to influence America's purchasing decisions and 
shape our worldview. Companies and marketing agencies routinely develop 
products and manipulate audiences telling us what we need to be smart, 
affluent, or desirable. Consumptive marketing is pervasive in American 
culture and children are bombarded with marketing images of cultural 
ideals of beauty and success and relentless sales pitches for food and 
products no one needs.
    This leads to a ``me, me, and me'' culture of acquisition and 
interpersonal competition. Relentless persuasive messages both in 
online media and television must be examined and regulated. The 
national commission may find it prudent to begin to develop critical 
viewing or media awareness messages to help inoculate children from 
shallow marketing and sales messages.

                            CRISIS OF YOUTH

Problems in Urban Settings

    Every day, I become more certain that there is growing despair and 
hopelessness in the hearts and minds of today's urban, minority youth 
and it takes different forms in boys and girls. I have witnessed 
firsthand the hopelessness in children's eyes living in poor urban 
settings often taking the form of marijuana or alcohol abuse, teen 
pregnancy, gang violence and youth murder. I have thought to myself as 
I drove by a dusty playground or dilapidated soccer field that we all 
like to think that if children can do well in school they can somehow 
leave their family and neighborhoods, learn new social graces and make 
new friends, apply and get into college and rise to the working or 
middle social classes.
    I am wholly unconvinced.
    Doing well in urban schools is difficult, compounded by the 
enormous pressures experienced in living in female headed, single 
parent households. Good teachers often won't work in urban settings, 
and if they do they get easily burned out by the symptoms of despair--
anger, illiteracy, and disruptive behavior in overcrowded classrooms. 
Most children in urban centers, live in a female headed, single parent 
household, where mother is overwhelmed and depressed, lucky if she is 
working at a low-wage job. Without good parenting, high performing 
schools, access to extracurricular activities and social opportunities 
in safe neighborhoods the pathway out of poverty is forever blocked. I 
have personally seen again and again the hardship of single mothers 
raising sons, and daughters, without involvement of their fathers, 
living with little income, support or security; it would take nothing 
less than relentless political will, sustained and inspired leadership 
combined with coordinated public policy change to lift those children 
and their families out of poverty into the middle class.
    Once and for all end teenage pregnancy, early parenthood, and out-
of-wedlock births. This should be a commission priority in year one. If 
Madison Avenue can convince everyone, and I mean everyone, that luxury 
items are a necessity and that McDonalds is healthy, with a similarly 
robust and unrelenting campaign we can end this contagious and 
destructive social pattern promoting poverty and harming children, both 
teen parents and their babies.
    In my childhood, I remember vividly the admonishments against 
littering (``Don't be a Litter Bug'') and being taught the terrifying 
consequences of heroin use and addiction. There has not been a 
government-sponsored campaign to inoculate children from the stream of 
negative messages and images in recent memory and these protective and 
effective social marketing campaigns for young children need to be 
urgently resurrected.

Problems in the Suburbs

    The recent gang rape of a young teenage girl by several young 
teenage boys in Madison, CT, an affluent suburb, represents another 
kind of crisis of youth. These heinous acts occurring under the 
influence of alcohol were captured on a cell phone and sent out to 
friends. These were children not living in financial poverty but living 
in a kind of moral poverty. Children of all ages and socioeconomic 
classes are exposed to a torrent of gratuitously sexual and aggressive 
messages and images in every media format. This desensitizing and 
dangerous exposure combined with the disinhibition associated with 
alcohol abuse leads to disaster, particularly for teenagers. Far too 
many parents continue to allow teenagers to have parties in their homes 
and tolerate drinking of alcohol by underage children. A national body 
on children can seize this opportunity in crisis to develop educational 
campaigns to better protect children against the flood of unhealthy 
messages and educate parents to be more aware of the importance of 
limit setting, parental supervision and legal responsibility.

                          ETHICS AND CHILDREN

    A constant bombardment with messages urging consumption of marketed 
goods helps distort children's view of themselves, their families and 
their community. Before the recession, 70 percent of the GDP came from 
having Americans buy goods and services. This leads to a worldview 
concerned with acquisition of things and status symbols, leading to 
interpersonal competition rather than interpersonal cooperation.
    The U.S. Commission on Children and America's Young People--or 
National Commission on Children and Youth in America--could initiate 
and sustain a public education campaign to educate youth, and the 
public at-large, to the virtues of an ethic of service to others. 
Championing the rewards of doing for others may help to make children' 
lives more meaningful, provide much-needed support to vulnerable 
populations and begin to mitigate the onslaught of negative influences 
of media and marketing.

                                SUMMARY

    I thoroughly support Senator Dodd's proposal to initiate a U.S. 
Commission on Children and America's Young People. Establishing such a 
national body focused on the policy issues facing American children and 
youths will provide fundamental direction and positive change for 
American children historically not a domestic policy priority. In order 
for this new commission to work, it must have legal and financial 
authority in directing public policy affecting U.S. children. To ensure 
this, I suggest that the director of this body be designated as a 
cabinet member with direct access to the President.
    The problems weighing on America's children have significant 
negative consequences for our Nation's potential and productivity. With 
political will and strong leadership, the national commission on 
children will be able to make life altering improvements by laying the 
groundwork to provide a vision for U.S. children by coordinating, 
evaluating, and initiating effective public policy to dramatically 
improve their children's lives.
    The U.S. Commission on Children and America's Young People once 
established, can set standards and follow indicators of well-being for 
American children, coordinate Federal policy affecting young people, 
and oversee program evaluation and funding.
    Senator Dodd's vision of a national body on children is a far-
reaching, life saving initiative, one that will forever raise the 
spirit of children in need and help lift all children out of harm's 
way.
    I am deeply grateful for Senator Dodd's compassion, wisdom and 
courage on behalf of American children and would like to take this 
opportunity to thank him for his 35 years in the U.S. Senate positively 
impacting the lives of millions of children and families. We will miss 
him as our State champion and national hero but will continue to expect 
great things from this great leader and great man.

          Prepared Statement of William B. Wickwire, Attorney

    This statement is being presented by me, Attorney William B. 
Wickwire, who was the Prosecutor for Juvenile Matters in New London 
County, State of Connecticut, for 30 years. I retired on July 1, 2009, 
and I am currently a sole practitioner primarily in New Haven County, 
State of Connecticut. My practice of law is focused on defending 
juveniles in the Connecticut Juvenile Justice System.
    I will now take a child, charged with one or more delinquency 
offenses through Connecticut's Juvenile Justice System, with comments 
along the way, as to how the Juvenile System works today, and how it 
could work better on behalf of our juvenile children. Before I do this, 
it is incumbent that I mention a recent change in Connecticut's 
Jurisdictional Age for Juveniles. Connecticut increased the age to 17 
years of age for the prosecution of all juveniles. Adulthood now begins 
at 18 years of age, instead of at 16 years of age, for two main 
reasons:

    1. Connecticut, as with 47 other States, now allows prosecution of 
juveniles beyond their 16th birthdays.
    2. Connecticut agrees with the scientific literature that a child's 
brain is not fully mature at 16 years of age.

    Once a child is charged with a delinquency offense, the child is 
presented in juvenile court and given his/her rights and the nature of 
the charge(s) against the child. However, one key difference in 
Juvenile Court, as opposed to Adult Court, is that once a child enters 
the courthouse, the child is assigned a probation officer. The 
probation officer works with the child and parent(s) or guardian 
throughout the process. Therefore, a child can receive treatment and 
services early in the processing of the child's case. This must be with 
the agreement of the child, the child's parent(s) or guardian and the 
child's attorney (if the child is so represented). In Adult Court, a 
probation officer is not assigned to a defendant until after his/her 
conviction.
    Juvenile Court is very treatment-oriented, with the best interest 
of the child as paramount. However, Connecticut does not have enough 
diagnostic and treatment facilities for juveniles. Connecticut has only 
one facility that provides a comprehensive report, after a 45-day in-
patient commitment for drug issue(s). The report indicates potential 
treatment options for a child's drug and/or alcohol problem(s). 
Connecticut has only one residential psychiatric hospital for the 
diagnosis of a child's potential mental health issue(s). Unfortunately, 
many children languish in detention (lock-up) centers, because there 
are insufficient beds at the two in-state facilities. Especially as to 
children with mental health issue(s), the choice becomes the child's 
remainder at the diagnostic hospital or return to detention (lock-up). 
A child's remainder at the diagnostic hospital after the report has 
been completed is not in the best interest of the child. The child is 
not receiving therapeutic treatment. Furthermore, the hospital does not 
have a bed available for another child.
    After the child's initial presentment in Juvenile Court, the case 
goes to a pre-trial. Most juvenile cases are settled at the pre-trial 
level. The case then goes to a probation officer for a thorough report 
with recommendations as to the best interest of the child. The 
settlement of a juvenile case could result in a recommendation of 
community service with no adjudication of delinquency. More serious 
offenses, usually sexual assault offenses, are tried in Juvenile Court. 
As to the most serious crimes, the children are transferred to the 
Adult Court for handling as adult criminals. If a child is adjudicated 
a delinquent after a trial, the probation officer prepares a thorough 
report with recommendations.
    If the recommendation(s) is probation, the terms and conditions are 
entered by the Court. Problems in Juvenile Court stem from a probation 
officer's recommendation that the child be placed out of the home by 
DCF (The Department of Children and Families). DCF does not have enough 
funding to place, in a timely manner, all of the children that require 
alternative placements. Therefore, the child languishes in detention 
(lock-up), until the funding is available for the child's placement.
    Certain male juvenile delinquents are placed at the Connecticut 
Juvenile Training School in Middletown, CT. The cost of a year's 
placement is prohibitive. Not only that, but the Training School was 
built and designed by the Roland Administration and was effectively an 
inappropriate placement facility for children. As stated in the New 
York Times article of June 25, 2004, page B5, ``One of the biggest 
complaints about the facility is the cell-like rooms, which consist of 
a plastic bed and a shelf.'' The cells are quite small and would be 
more appropriate for convicted adult defendants. As of today, July 29, 
2010, the rooms are still small and cell-like. Governor Rell tried to 
create three (3) regional centers for adjudicated delinquents and hoped 
to close the Training School. Her efforts failed for financial reasons, 
and Connecticut male juveniles are still placed at the Training School. 
Improvements have been made at the Training School, as to the treatment 
of the children placed there. However, it is still an inappropriate 
placement for Connecticut's children. Maybe the funding can be 
appropriated to open the three regional treatment centers. Connecticut 
still does not have an appropriate facility to place adjudicated 
delinquent girls that need secure long-term placements.
    With the influx of the 16-year-old children, and eventually, the 
17-year-old children into Connecticut's Juvenile Justice System, I can 
only hope that the appropriate funds can be made available to service, 
effectively, all of Connecticut's juvenile delinquent children. A 
delinquent child in Connecticut should have a good chance to become a 
happy and productive member of society. Hopefully, this occurs.
    At Senator Christopher Dodd's Connecticut Hearing on Monday, July 
26, 2010 as to the State of the Child, various preventative programs 
that aim to nurture and to protect Connecticut's children, all 
indicated a lack of appropriate funding. Not only do we need sufficient 
funding of preventative programs for children, but we also need 
sufficient funding as to intervention programs, such as Connecticut's 
Juvenile Justice System.
    Speaking as a resident of the State of Connecticut and as a retired 
Juvenile Court prosecutor, I want the best for our children.
    At this time, I commend and thank Senator Christopher Dodd for his 
untiring and successful efforts on behalf of America's children, who 
will benefit from his leadership and dedication.
    Respectfully submitted.

    [Whereupon, at 11:46 a.m., the hearing was adjourned.]

                                   

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
